<html>
<title> - COMBATING TERRORISM: ROLE OF THE NATIONAL GUARD RESPONSE TEAMS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
     COMBATING TERRORISM: ROLE OF THE NATIONAL GUARD RESPONSE TEAMS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 1999

                               __________

                           Serial No. 106-32

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
59-837 CC                    WASHINGTON : 1999



                     COMMITTEE ON GOVERNMENT REFORM
                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Michele Lang, Professional Staff Member
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 23, 1999....................................     1
Statement of:
    Cragin, Charles, Acting Assistant Secretary for Reserve 
      Affairs, Department of Defense, accompanied by Major 
      General Roger Shultz, Director, Army National Guard; 
      Brigadier General Bruce Lawlor, Deputy Director for 
      Military Support, Director, Consequence Management Program 
      Integration Office, Department of the Army; and Major 
      General John H. Fenimore, Adjutant General, New York Air 
      National Guard.............................................    30
    Gebicke, Mark, Director, National Security Preparedness 
      Issues, National Security and International Affairs 
      Division, General Accounting Office, accompanied by Ann 
      Borseth, Senior Evaluator, National Security and 
      International Affairs Division, General Accounting Office; 
      and Robert Pelletier, Assistant Director, National Security 
      and International Affairs Division, General Accounting 
      Office.....................................................     4
Letters, statements, etc., submitted for the record by:
    Cragin, Charles, Acting Assistant Secretary for Reserve 
      Affairs, Department of Defense, prepared statement of......    34
    Fenimore, Major General John H., Adjutant General, New York 
      Air National Guard, prepared statement of..................    46
    Gebicke, Mark, Director, National Security Preparedness 
      Issues, National Security and International Affairs 
      Division, General Accounting Office, prepared statement of.     7


     COMBATING TERRORISM: ROLE OF THE NATIONAL GUARD RESPONSE TEAMS

                              ----------                              


                        WEDNESDAY, JUNE 23, 1999

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Souder, Terry, Blagojevich, 
Schakowsky, and Tierney.
    Also present: Representative Skelton.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; J. Vincent Chase, chief investigator; Michele Lang, 
Robert Newman, and Marcia Sayer, professional staff members; 
Jason Chung, clerk; David Rapallo, minority counsel; and Earley 
Green, minority staff assistant.
    Mr. Shays. I'd like to call this hearing to order. Local 
and State and Federal efforts to combat domestic terrorism are 
proliferating rapidly. City and county first responders are 
being trained and equipped to deal with incidents involving 
nuclear, biological, and chemical weapons of mass destruction. 
More than 40 Federal departments, agencies, and programs have 
responsibilities to help detect, deter, and mitigate the 
effects of terrorist attacks. Next January, 10 National Guard 
Rapid Assessment and Initial Detection teams, RAID teams, will 
join the arsenal available to States against the terrorist 
threat.
    So we asked the General Accounting Office [GAO], to assess 
the proposed mission and operational role of the new RAID teams 
to determine where they will fit in a coordinated, effective, 
and efficient response to a weapons of mass destruction 
incident. According to the report released by GAO today, the 
answer remains disturbingly murky.
    State and local officials expressed widely varying degrees 
of confidence that a RAID team would arrive in time to be of 
real use in the critical early stages of situation assessment 
and lethal agent detection. Some viewed the RAID team mission 
as duplicative of growing State and local first-response 
capabilities.
    Commenting on the report's findings, the lead Federal 
agency for consequence management, the Federal Emergency 
Management Agency, commonly referred to as FEMA, agreed that 
``new chemical capabilities for the Guard may not be necessary 
to support Federal operations.'' GAO recommends a basic 
reassessment of the RAID team concept before the program is 
expanded. Others disagree. The Department of Defense [DOD], 
sees a well-defined role for specially trained National Guard 
units as an advance element of the overall support the Pentagon 
will inevitably be called upon to provide. DOD officials view 
the National Guard RAID teams as critical State-controlled 
intermediaries between local first responders and other Federal 
military support arriving later.
    But we need to be more certain the RAID teams envisioned by 
DOD do not disrupt the proven response scenarios or duplicate 
local capabilities. An Oklahoma City council member recently 
described the confusing jumble of Federal help that arrived 15 
hours after the bomb blast as needlessly injecting arguments 
over bureaucratic turf into the city's efforts to cope with 
human tragedy. That can't be allowed to happen again.
    This subcommittee's ongoing examination of Federal efforts 
against terrorism takes a unique, governmentwide view. Our 
oversight mission is to help shape an evolving national 
strategy that matches the response to the threat, coordinates 
crisis and consequence management at all levels and operates 
efficiently. Today, we ask if the proposed National Guard RAID 
teams meet those tests.
    Our work in this area has been aided immeasurably by 
Representative Ike Skelton from Missouri, ranking member of the 
House Armed Services Committee. His long-standing interest and 
expertise in these issues transcends party and even transcends 
the sometimes more impenetrable barriers of committee 
jurisdictions. As the cosponsor of this GAO report and others 
on the Federal terrorism response, he joins us as a valued 
partner and ally. And he's welcome by the subcommittee.
    And at this time I would say that we look forward to our 
witnesses. I'll be calling them and swearing them in in a 
second and with Representative Lee Terry's permission, I'll go 
to Ike Skelton to see if he has a statement and then I'll go to 
you. Thank you.
    Mr. Skelton. Thank you very much, Mr. Chairman. I will make 
only a brief comment. I welcome this opportunity to be here. I 
welcome the opportunity for this hearing. It certainly raises 
our level of awareness about the problems of implementation for 
the RAID teams. I personally agree with what we have 
established in the RAID teams. We--these are new, relatively 
new concepts and the implementation continues to evolve.
    Of course, we can all hope against hope that we never have 
to use them. The reality being what it is, they somewhere along 
the line may sadly be forced to respond to these incidents, as 
we have seen already occur in our country. So I look forward to 
this. I look forward to the testimony of Mr. Cragin and the 
testimony of the gentleman from the National Guard because that 
certainly does mean a lot to us in the future safety of our 
fellow Americans. Thank you so much for allowing me to be with 
you.
    Mr. Shays. Thank you very much for being here. I would now 
call on a really valued member of this committee, Lee Terry. I 
would just parenthetically say of all the people who ask 
questions I find his the most insightful and it's wonderful to 
have him here.
    Mr. Terry. I appreciate that, Mr. Chairman. I have no 
prepared opening remarks. I spent 8 years on our Omaha City 
Council and what a lot of you don't know is that we were the 
bridesmaid to Oklahoma City. Timothy McVeigh spent time in 
Omaha on videotape in our Federal courthouse of his presence so 
of course we're concerned.
    But also just in the general sense of that our local fire 
and our police are the first responders in any type of a 
tragedy and whether natural or man made will count on support 
from the State and from the Federal by way of National Guard 
involvement and what roles they play is important.
    Mr. Chairman, as you said, from citing the council member 
from Oklahoma City, it's our firemen and our police who are 
going to be on the scene or involved in the investigations 
initially, and sometimes they could be there for hours. To have 
a new entity show up no matter how benevolent their involvement 
could be very disruptive.
    We need to look through the process and find out a way of 
enhancing everybody's involvement as opposed to allowing a 
process to decay in a time of emergency. So that's why these 
types of hearings are extremely important for the local 
communities and just the overall safety and well-being of our 
constituents. I appreciate your holding this hearing.
    Mr. Shays. Thank you very much. Before calling on our 
witnesses, I just ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and that the record remain open 3 days for that purpose 
and without objection so ordered. I'd ask further unanimous 
consent that all Members be permitted to include their written 
statement in the record and without objection so ordered. We 
would also obviously include Mr. Skelton's statement in the 
record.
    Thank you. At this time I would recognize our first panel 
and it's Mark Gebicke, Director of National Security 
Preparedness Issues, National Security and International 
Affairs Division, GAO, General Accounting Office, accompanied 
by Ann Borseth, who is Senior Evaluator for the GAO in the same 
division, and Robert Pelletier, Assistant Director in the same 
division as well.
    At this time what we do, as I think you know, we swear in 
all our witnesses. I'd ask you to rise and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all have responded in 
the affirmative. I think we can have a pretty punctual hearing. 
This doesn't need to be a long hearing, but it is a truly 
important hearing; and I'm grateful to have our two panels and 
obviously our guest of such distinction, Mr. Skelton. So I 
invite you, Mr. Gebicke, to make a statement. I think you're 
the only one with a statement and then you'll respond to 
questions.

    STATEMENT OF MARK GEBICKE, DIRECTOR, NATIONAL SECURITY 
   PREPAREDNESS ISSUES, NATIONAL SECURITY AND INTERNATIONAL 
AFFAIRS DIVISION, GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY ANN 
BORSETH, SENIOR EVALUATOR, NATIONAL SECURITY AND INTERNATIONAL 
    AFFAIRS DIVISION, GENERAL ACCOUNTING OFFICE; AND ROBERT 
     PELLETIER, ASSISTANT DIRECTOR, NATIONAL SECURITY AND 
   INTERNATIONAL AFFAIRS DIVISION, GENERAL ACCOUNTING OFFICE

    Mr. Gebicke. That's correct. Thank you, Mr. Chairman. We're 
very pleased to be here this morning to talk about the National 
Guard RAID teams. We've worked very closely with this 
subcommittee along with Mr. Skelton and we've enjoyed that 
relationship providing a number of products over the last--over 
the last 3 years on the Federal structure and the programs that 
are available to combat terrorism.
    And we've seen a consistent theme emerge over just about 
all the products that we've done, and that theme is that the 
number and cost of programs that have been initiated to combat 
terrorism has grown tremendously. And this has presented a very 
difficult management and coordination challenge in order to 
avoid duplication, fragmentation, and gaps.
    And my message here today is going to be somewhat similar 
to the theme that we've given you over the past dealing with 
the--and that theme deals with the RAID teams obviously and the 
report that the subcommittee just released today and that is 
that there's a need for a more focussed and coordinated U.S. 
response to weapons of mass destruction. We need an approach 
that capitalizes on the existing capability, minimizes the 
duplication, and at the same time focuses our funding on the 
highest priorities.
    Now, exactly what are the RAID teams? DOD is currently 
establishing RAID teams to assist local and State responders. 
They're really going to do three things. They're going to help 
assess the situation when an incident does occur, advise the 
local and State authorities when necessary, and then facilitate 
requests for additional resources from the State and Federal 
military assets.
    This fiscal year, 10 RAID teams are to be established. 
They're going to be in States that also coincide with FEMA 
regions. Each RAID team will consist of 22 full-time members. 
They'll be on call 24 hours a day, 365 days a year and each 
team will have dedicated equipment, ground transportation. They 
will not, however, have dedicated air transportation.
    As you mentioned in your opening remarks, when we went to 
the Federal, State, and local officials to ask about how the 
RAID teams have begun to and will eventually fit into the 
scheme that currently exists for responding to a weapon of mass 
destruction, we found varying views, differing views.
    At the Federal level, principally the players are the Army, 
the FBI, and FEMA, the principal players. The Army takes the 
position that the National Guard RAID teams are a very 
necessary element of a Federal response and a State response 
picture and believe that there are no obstacles that can't be 
overcome; and I'm sure the witnesses after I and our panel 
finishes will confirm that.
    The FBI and FEMA, on the other hand, express quite a 
different view. They question the need for the teams. They are 
of the opinion that we have an adequate Federal response 
capability and that possibly this capability might be 
duplicative of what already exists. They're concerned about how 
the Federal Government--excuse me, the National Guard RAID 
teams would be able to integrate themselves in the local and 
the State response that has already been established.
    And I need to mention this too that every place we went, 
all those officials that we spoke to were highly complimentary 
of the National Guard in their more traditional role and that 
is coming to an event where we need assistance and providing 
personnel, equipment, supplies, and transportation in the event 
of a catastrophe.
    So that's really not at issue here, and what we're really 
talking about is whether or not the FBI, FEMA, and other 
officials that we've talked to believe that we need that 
initial capability of detection and identification that has to 
take place very early in an incident. And I'll talk more about 
that in just a second.
    Now, at the State level, we also have varying views. It 
depends on where you go. One State is getting ready to accept 
and implement a RAID team. It was very complimentary, felt that 
the RAID team in their particular State was being integrated 
adequately and it would provide them with additional, more 
robust capability.
    They anticipated using the RAID team to help them in 
general hazardous material incidents and to be the primary 
asset that would be available to the State, should there be an 
incident involving a weapon of mass destruction.
    We need to clarify that when we have an incident the very 
first people that respond typically are your police department 
and then probably followed very closely by your fire department 
and your emergency medical personnel.
    Most of the HAZMAT teams that are available throughout the 
country have basic training in dealing specifically with 
chemical agents and more specifically with toxic industrial 
chemicals because whenever they encounter an accident on a 
highway, they just don't know what confronts them so they have 
to have some basic training to assure that they take adequate 
control of the situation.
    Some officials told us that they believed the RAID teams 
could be useful in locations that have little or no HAZMAT 
capability, that this could be very helpful in those instances. 
We also talked with local officials and also the International 
Association of Fire Chiefs and we talked specifically about 
that first element that's very critical, the detection and 
identification of chemical agents and there again emphasized 
that it's really the first responders that need to have that 
real robust capability. They are the people that are going to 
be first on the scene and have to make a very, very quick 
assessment, usually within the first hour, certainly no more 
than the first 2 hours of when they're confronted with.
    The second question that you asked us to address was 
whether or not there were other capabilities that exist at 
either the Federal or the State or the local level and we did 
identify over 600 HAZMAT teams located throughout the United 
States that can respond and do respond to incidents.
    The chart over here to my right and your left indicates the 
various categories of the response elements that are available 
to a locality. At the very top you see what's readily available 
to the State in terms of the RAID teams once implemented, the 
State HAZMAT teams and the Air National Guard units, and then 
the lighter shaded to the right of the chart would indicate the 
Reserve military units, the active military units, and then the 
darker shaded to the bottom and to the left would indicate the 
Federal civilian and military activities that would be 
available.
    So when you look at that you paint a very, very complicated 
picture of a number of different units that can respond, and we 
can talk in more detail about that later if you'd like.
    The third issue that I wanted to mention here this morning 
that came up frequently in our discussions about the 
implementation of the RAID teams again had to do with the 
timeliness of the arrival of the RAID teams. Officials 
indicated the need for the team to arrive in that first hour to 
particularly be of help in the detection and identification of 
a chemical. They feel that the HAZMAT teams have that 
capability and with the RAID teams not arriving until probably 
the 4th hour, that assistance in that particular mode of 
dealing with the incident would not be of much value.
    They also raised concerns about the team's ability to both 
retain and also to train their individuals, particularly those 
individuals that are in relatively specialized occupations.
    So in conclusion, Mr. Chairman, the fact that we've got, as 
you've characterized it, murky views from the State and local 
and Federal agencies about the RAID teams and how useful they 
could be and how they'd fit into the Federal response and the 
State response mode, we felt that greater clarification was 
needed before we proceeded.
    The fact that there appears to be some similar 
organizations that have functions very close to what the RAID 
team would bring to an incident lead us to believe that there 
might be unnecessary duplication among the responders and 
finally the concern about the timeliness of the response of the 
RAID teams coupled with issues of potential retention problems 
and also training problems leads us to believe that the RAID 
teams might have difficulty executing their responsibilities 
diligently.
    And as you mentioned, we made several recommendations in 
our report for consideration. We felt it would probably be a 
good idea at this point in time to pause, to see how the 
implementation goes in these first few RAID teams to see if 
these issues that have been raised at the State and local and 
Federal Government are indeed issues that need to be resolved 
or whether or not we can move forward if we feel that the RAID 
teams are certainly necessary.
    Mr. Chairman, I'll stop right there. It's a brief summary 
of our report. We'll be glad to respond to any questions that 
you may have.
    [Note.--The GAO report entitled, ``Combating Terrorism, Use 
of National Guard Response Teams Is Unclear,'' GAO/NSIAD-99-
110, is retained in subcommittee files, and may be obtained 
from GAO by calling (202) 512-6000.]
    [The prepared statement of Mr. Gebicke follows:]

    [GRAPHIC] [TIFF OMITTED]59837.001
    
    [GRAPHIC] [TIFF OMITTED]59837.002
    
    [GRAPHIC] [TIFF OMITTED]59837.003
    
    [GRAPHIC] [TIFF OMITTED]59837.004
    
    [GRAPHIC] [TIFF OMITTED]59837.005
    
    [GRAPHIC] [TIFF OMITTED]59837.006
    
    [GRAPHIC] [TIFF OMITTED]59837.007
    
    [GRAPHIC] [TIFF OMITTED]59837.008
    
    [GRAPHIC] [TIFF OMITTED]59837.009
    
    [GRAPHIC] [TIFF OMITTED]59837.010
    
    [GRAPHIC] [TIFF OMITTED]59837.011
    
    Mr. Shays. First let me recognize the presence of Mr. 
Tierney. Nice to have you here, and it's my intention to call 
on Lee Terry and have him go first and then with the permission 
of Congressman Tierney, we'll go to Ike Skelton and then we'll 
go to you.
    You have the floor.
    Mr. Terry. Thank you. I appreciate hearing your remarks 
again, and I really do feel this is one of the few hearings 
where I really think we're on the same page. I want to bring 
out a little bit of your testimony here, some of the points 
that you raised and discuss them in the context really of what 
I stated in my opening remark and, that is, who should be in 
control and who should be helping whom?
    We in the Federal Government have this system of we're 
supposed to be the ones that control and local governments are 
subordinate to States and States to us, but I think in an 
emergency response situation, it has to be the reverse.
    You mentioned the word timeliness probably three or four 
times in your remarks, and I think that's the core of the issue 
here. In any type of emergency, whether it's detecting an 
emergency before it happens or the disaster and the cleanup 
that's necessary afterwards, it's our local police officers and 
our fire department and in a lot of these experiences it's the 
fire truck that gets there before the cops do. And then the EMS 
behind it.
    They're there for a certain amount of time. They've got at 
least an uncontrollable situation, as much control as possible 
and then come the RAID teams and FEMA and everybody else just 
to confuse the picture and, like I said in my opening 
statement, everyone may have or possess benevolent means or 
desires but it just adds to a confusing situation. So let's 
talk about the timeliness for a second and let's highlight 
that.
    Your chart over here is great, and it shows all the 
entities and right there in the middle is the first responders, 
the HAZMAT, the fire, and the police. Now, one of the studies 
that we do yearly on the city level with our fire department is 
response times.
    Has there been a study that shows what the response times 
can be for these RAID units when a situation occurs and 
whatever the cities are in their territory?
    Mr. Gebicke. They're using a standard of 4 hours. Now, 
obviously that would be--could be less if the incident happened 
to occur closer to the proximity where the RAID team is 
situated. If the incident is in another part of the State, it 
could take longer, feasibly. But 4 hours is the assumption that 
we have on arrival of the RAID team at an incident.
    Mr. Terry. Again with the assumption of 4 hours, let's say 
that response time is an average time in any type of a region; 
but I do agree with you I think probably in a lot of these 
areas it could be a lot longer than 4 hours. But have they 
shown any cost benefit analysis of showing up 4 hours after the 
fact? And by the way, I also want to highlight the first group 
that comes in in 4 hours may be the minimal crew and others 
will follow once that first crew has made an assessment.
    So we heard from the city council person in Oklahoma City 
that it was as long as 15 hours, and I think that's probably 
very probable. But anyway, has there been a cost benefit of 
seeing that if after 4 hours, even what type of impact they 
would have, the benefit of becoming involved versus the cost of 
the disruption?
    Mr. Gebicke. I'm not aware of any studies that have been 
done along those lines.
    Mr. Terry. Do you think that's necessary? Do you think 
that's important for us to understand?
    Mr. Gebicke. I don't know. I'm not so sure. I think the 
most important thing for us to understand here today is that, 
as you mentioned in your remarks, it's the center of our chart. 
Those are the key people that need to arrive, and I'd like to 
think that within the first hour or two the incident commander 
will be able to assess the situation to figure out whether or 
not he or she has the assets available right then and there to 
handle the situation, needs to maybe call in some of these 
mutual aid agreements he or she might have with other 
surrounding communities or counties to get those assets in or 
whether or not there are closely located Federal assets that 
can be called or whether the hotline--there is a hotline for 
oil spills and chemical spills and there's a hotline for 
chemical/biological incidents, whether that hotline--you see, I 
would think all of that would have taken place before the 4th 
hour.
    Mr. Terry. Right. Well, in talking about that in more of a 
general sense seems to me that our dollars could be used more 
efficiently here by training our local officials, by joining 
with HAZMAT and training them how to better deal with a 
biochemical situation than spending the money to form these 
RAID teams. Has there been a study on that, of spending our 
money up front to help participate in the education and 
training of first responders?
    Mr. Gebicke. You're aware I'm sure of the Nunn/Lugar/
Domenici legislation where we're actually providing both 
training and equipment to 120 of our most populated cities, and 
that program is about 50 percent completed right now.
    Last, I saw I believe about 58 of the 128 cities--of the 
120 cities had actually received the training and started to 
receive the equipment. So that program is aimed at the local 
community and the State community, as you indicated, at a city 
level.
    Mr. Terry. And that's one prong of it. I'm not too sure we 
shouldn't be putting all of our resources to the front end 
there and--I've sat down and I've talked to our HAZMAT people 
in Omaha, NE, and our firemen and our EMS folks; and they are 
so confident in their abilities, but it's a little bit 
different than cleaning up a truck spill outside the Van Waters 
and Rogers chemical plant than it is dealing in this area and 
that's where--their confidence isn't as strong in that area, 
and we need to enhance that and figure out ways that this RAID 
team then, if we keep that, enhances their ability.
    What studies has there been then to show--I take it there 
really hasn't been any hands-on experience with these RAID 
teams yet?
    Mr. Gebicke. That's correct.
    Mr. Terry. What is the timetable or modeling that shows 
what role they'll play and where they can be most effective or 
is that the process that we're in now?
    Mr. Gebicke. I think it's evolving. I mean, even as we were 
doing our review and we were talking to officials, we were in 
close contact with the Army and the National Guard; and the 
role of the RAID teams has evolved over time. But you're 
correct.
    We're planning to put 10 RAID teams in place by this year, 
and our position is we'll know a lot more once those 10 are in 
place and we see how they're able to fit into those particular 
regions.
    Mr. Terry. Thank you.
    Mr. Gebicke. Thank you.
    Mr. Terry. Thank you, Mr. Chairman.
    Mr. Shays. Mr. Skelton, you have the floor.
    Mr. Skelton. Thank you very much. Mr. Gebicke, nice to see 
you once again. We appreciate your testimony and your work. As 
I mentioned before, your efforts and the efforts of your 
associates have certainly raised the level of awareness about 
problems of implementation of the RAID teams. I think it is 
very helpful and very useful.
    The purpose of a RAID team, as you testified, is to assess, 
to advise, and to help get Federal resources; am I correct?
    Mr. Gebicke. That's correct.
    Mr. Skelton. I'm reminded the reports that are often done 
are people who are critical of something new outside of the 
GAO. I'm reminded of the criticisms that lasted for a number of 
years against the B-2 stealth bomber and yet performed 
magnificently in the recent conflict, carrying out 1 percent of 
the raids and 11 percent of the targets. The proof was in the 
pudding.
    Those critics today find themselves with a bit of egg on 
their face. And I think we might find ourselves criticizing 
something that might work, that might work well. I look forward 
to the National Guard's testimony, but it is, as I understand, 
Mr. Gebicke, and according to your report, that there were 
differing views among the Federal and State officials on the 
role of the RAID teams. Is that correct?
    Mr. Gebicke. That's correct.
    Mr. Skelton. The Army officials believe the teams can be 
valuable assets. Is that correct?
    Mr. Gebicke. That's correct.
    Mr. Skelton. And there were some State officials that felt 
this very same way?
    Mr. Gebicke. Yes, sir.
    Mr. Skelton. It appears to me that all of the firemen, 
police, first responders--and God bless them, they're wonderful 
all across our Nation--their main purpose of course is to 
respond to fires or crime, as the case may be.
    It appears to me that a specialized group such as the 
National Guard RAID team in excellent training with those first 
responders could bring about a great deal of positive results 
for an incident that sadly might occur.
    It seems to me that the bottom line in all of this is the 
caliber of the National Guard, the caliber of the training that 
they have, and the caliber of the training that they do with 
the first responders. I see that the figure of 4 hours is 
bandied about, but on the other hand if they are fully aware of 
what the RAID teams can do and the RAID teams in many instances 
will be there, as you acknowledge, well before any 4 hours to 
assess, to advise, and get Federal resources, that this may be 
one of the most positive efforts in our homeland defense that 
we've run into.
    I thank you, Mr. Gebicke, for your efforts. You're always 
thorough, and I always applaud your thoroughness and the 
gentleman that you are in your work. We thank you for it, sir.
    Mr. Gebicke. Thank you, sir.
    Mr. Shays. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I'll be very brief 
because I think you've covered good ground here and I 
appreciate your testimony, sir. Just for clarification, would 
you give me what you anticipate would be the scenario in a 
hazardous situation where there was a HAZMAT team in that 
community, just how things might shape up in that situation 
when the RAID team would show up and what their role would be 
if the HAZMAT had already been there and performed their 
function.
    Mr. Gebicke. We're going to talk not about a weapon of mass 
destruction incident but an accident?
    Mr. Tierney. Whatever you'd like.
    Mr. Gebicke. So there's an accident. Probably the police 
arrive first, the fire department probably second. Can use the 
example that occurred down here on 395 in northern Virginia 
with the black powder just a couple of weeks ago that put us--
inconvenienced a lot in traffic.
    People arrived there first recognized that the cargo was 
black powder, potentially volatile, very dangerous, had to make 
an assessment of the situation, which individuals needed to 
be--needed to be contacted. First, make a decision as to 
whether or not they had the assets right there to deal with the 
situation, if you have the assets to go ahead and deal with it.
    If you're not sure of your capabilities to deal with the 
situation, then you might have some arrangements in the case of 
northern Virginia with other counties, maybe Fairfax, 
Arlington, the city of Alexandria would have. You'd have mutual 
aid agreements where you can contact other close by proximities 
to assist you. If you feel within that first hour or so or even 
more that this is bigger than you thought it was and you need 
more help, you've got the EPA hotline that you can contact 
right away and get Federal assistance there.
    There are over 300 coordinators located around the country, 
most of them in EPA, but some of them in the Coast Guard, to 
protect our waterways and then a whole host of other assets as 
depicted on the chart. I mean, we could go through that chart 
but we're talking about hundreds, hundreds of units that are 
available.
    If I could use this opportunity just to suggest what we 
really don't have--because we really don't have--and I told my 
staff what we need is a map of the United States, a real big 
map of the United States, and we need a red pin for a Federal 
response asset, a green pin for a State, and a yellow pin for a 
local; and then on the head of each pin we need a capability 
for that response unit from 1 at the lowest, minimal, to 10 at 
the highest.
    And then you could look at that map and you very quickly 
could see--overlay it with, say, your populated areas and say 
where does the capability exist, where is it robust, where it's 
not quite as robust, and where it's minimal and then also take 
into consideration what our threat and risk would be, 
particularly to a weapon of mass destruction in areas of the 
country where we probably have very few response assets or not 
as capable response assets.
    I think only when you have that, can we figure out if we 
have gaps and if we need to add more assets to the picture than 
we currently have.
    Mr. Tierney. I guess I'm a little shocked to find out that 
nobody can afford a map and a couple of colored pins to get us 
down that path. Are you saying that doesn't exist?
    Mr. Gebicke. It sure doesn't. It's finding out what the 
capability is at the local level.
    Mr. Tierney. I take it from your answer you're thinking the 
RAID might have an application but it would be better utilized 
if we identified areas that were probably a lower response 
capability at the present time and target and focus them?
    Mr. Gebicke. Exactly.
    Mr. Tierney. Does that put it in a nutshell?
    Mr. Gebicke. The RAID teams are going to be very helpful 
when they arrive in a more traditional role. If we need to 
cordon off an area, if we need to evacuate people, if we need 
to bring supplies, if we need to transport people, everybody we 
talked to said the National Guard performs that role very 
admirably.
    Mr. Tierney. Who would the RAID team respond to when they 
arrive on the scene in terms of authority?
    Mr. Gebicke. Well, there would be a State entity so they 
would report to the incident commander who has charge of the 
incident unless it was a weapon of mass destruction in which 
case the FBI would be notified right away, and I assume the FBI 
would take control.
    Mr. Tierney. There are 10 of these teams now out there? Ten 
RAID teams?
    Mr. Gebicke. Ten are being implemented right now.
    Mr. Tierney. Is it your view they were targeted or located 
with any theme in mind in terms of an assessment of their need 
as to the area where they're situated?
    Mr. Gebicke. From what I understand, there are a number of 
criterion that were considered. One was interest on the part of 
the State to have a team. Second was the more populated areas 
were considered and also they wanted to get at least one RAID 
or at least the way it turned out at least one team in each one 
of the 10 FEMA regions. In other words, there's one State in 
each one of the 10 FEMA regions.
    Mr. Tierney. Thank you very much.
    Mr. Shays. Thank you. I'd like to note for the record that 
Janice Schakowsky from Illinois is with us. I'm going to ask 
some questions, and then I'll go to you as well.
    You make the point GAO finds in its report that numerous 
local, State, and Federal organizations can provide similar 
functions as the National Guard, and I want to know how GAO 
distinguishes between similar and duplicative capabilities. 
When is similar duplicative?
    Mr. Gebicke. Well, we talk about similar, what we were 
really trying to determine, if you look at weapons of mass 
destruction, was principally--let's focus on chemicals. Most of 
the intelligence experts have told us that the weapon of choice 
by most terrorists will first be conventional explosives and 
then second would be chemical agents, possibly more 
specifically toxic industrial chemicals because they're more 
readily available.
    So what we--and we could talk about biological but that's a 
different issue and we can talk about nuclear and that's a 
different issue. So what we focused on was different units that 
had the capability to detect and/or identify a chemical agent, 
so that basically took us to the individuals who had knowledge 
of the HAZMAT capabilities and others in both the Federal 
military and the Federal civilian sectors.
    Mr. Shays. But, can I interchange duplicative and similar?
    Mr. Gebicke. No, because we haven't drilled down to that 
level of depth to be here today to tell you that there's an 
exact duplication, so we picked that word similar very 
carefully. We do have work under way for you, I'm sure you're 
aware of, that will give you the answer to that information--
that question. We will be looking very closely at Federal 
responders and to determine where it is duplicative and where 
there are gaps.
    Mr. Shays. If a fire department and HAZMAT team perform 
similar functions, would it be GAO's position that HAZMAT teams 
are not required?
    Mr. Gebicke. No, it wouldn't. I think your HAZMAT teams 
would have more equipment. They'd have better training and be 
able to perform some functions that probably the fire 
department would not be able to perform.
    Mr. Shays. When you went to ask the Army, the FBI, and FEMA 
their view of the RAID teams, your report suggests quite 
strongly that the Army is supportive and the FBI and FEMA have 
some reservations. And yet in earlier reviews they did, they 
did not raise those concerns. Am I seeing this correctly?
    Mr. Gebicke. No, I think some of those concerns were raised 
earlier.
    Mr. Shays. Did the FBI state their reservations in writing 
or would these just have been through interviews?
    Mr. Gebicke. The FBI stated their views orally. We have 
written comments from FEMA.
    Mr. Shays. But not written from FBI? Would there be a 
reason why they wouldn't put it in writing?
    Mr. Gebicke. Not that I'm aware of. We give our commenters 
an option to either respond in writing or orally. Either way is 
acceptable to us as long as we get the proper level of 
response.
    Mr. Shays. Is it possible that if it's in writing it would 
take too long to be approved? The process would take longer? In 
other words, someone is able to say something verbally; but if 
it's in writing, it has to be checked by more than one person? 
I'm just trying to understand. It seems to me there is value to 
have certain things in writing.
    Mr. Gebicke. I can't dispute that. I guess that's a 
possibility. It might take longer to get somebody to sign it if 
they're not readily available. We got no indication from the 
FBI that there was any reluctance for them to state their 
opinion to us.
    Mr. Shays. What State officials did GAO--I believe there 
are five States so I don't need to know the official, but there 
are five States that you chose to get comment from.
    Mr. Gebicke. We actually went to three States.
    Mr. Shays. You went to three States. In your report there 
are five. What are the three States?
    Mr. Gebicke. We went to Virginia, Pennsylvania, and Utah at 
the State level.
    Mr. Shays. But then I thought there was reference to two 
other States as well.
    Mr. Gebicke. We went to Montgomery County, MD.
    Mr. Shays. The county, but you didn't ask the State there. 
The other two States, they were county or local governments you 
looked at and Chicago for instance?
    Mr. Gebicke. That's right.
    Mr. Shays. Chicago is almost a State. Why did you pick 
Virginia, Utah, and Pennsylvania?
    Mr. Gebicke. We were trying to get a diverse picture. 
Pennsylvania happens to be a State that is implementing a RAID 
team, so we thought that they might be more pro-RAID teams than 
they were. Virginia was a very populated State with also some 
urban areas and also in the same region, same FEMA region, as 
the Pennsylvania RAID team; and then we picked Utah primarily 
because it's a more urban State with just a few populated 
locations.
    Mr. Shays. More rural State?
    Mr. Gebicke. Utah. Less densely populated State.
    Mr. Shays. In all three instances, the States had 
significant reservations.
    Mr. Gebicke. No, Pennsylvania was very impressed with the 
National Guard RAID team. They thought it was working 
acceptably in the State, and they planned to use this.
    Mr. Shays. Is that, though, in part because Pennsylvania 
has a RAID team? In other words, if I had the RAID team in my 
State, I think I might like it better than if it was next door.
    Mr. Gebicke. It's possible. Obviously we felt our study 
would have been flawed if we didn't go to a State----
    Mr. Shays. I understand. So I'm not overly moved by the 
fact that Pennsylvania likes the fact that it has a RAID team 
because then you don't have a coordination problem. So let me 
do the last question and that is tell me how the State of 
Connecticut controls Massachusetts? We would love to do that.
    Mr. Tierney. Not a prayer.
    Mr. Shays. The system, the RAID team, is located in 
Massachusetts. It is their National Guard; but if they, heaven 
forbid--but if Hartford were dealing with a serious crisis that 
required a RAID team, it wouldn't take 4 hours to assemble 
them, I hope, from Massachusetts because they're there. Are 
they under the authority of the Governor of Connecticut?
    Mr. Gebicke. I'm going to ask Mr. Pelletier to respond to 
that.
    Mr. Pelletier. The National Guard are under the authority 
of the State Governors that they're located in. Some States 
have compacts to share assets such as National Guard. I don't 
know what the situation is with Connecticut and Massachusetts, 
whether there is a compact. I know that there's a southern 
Governors compact for sharing of assets.
    Mr. Shays. I would have thought--maybe it was and I didn't 
catch it that one of your recommendations would be that 
whenever they entered a State, it would be a given that they 
would be under the jurisdiction, unless there's a 
constitutional challenge. In other words, without--obviously 
they can be under Federal control if the President so 
determines. I don't see the logic of having the Governor of 
Massachusetts be in charge of a team that's in Hartford, CT, 
when it's obviously----
    Mr. Pelletier. I believe until federalized, they are an 
asset of the State they are located in.
    Mr. Shays. There would have to be some type of pact unless 
there was a constitutional restriction, which leads me to 
believe that I would think that the selection of what National 
Guard in each FEMA area is chosen, in this case the 10, that 
they would be those States that have the most flexibility in 
allowing wherever State they're located for them to be under 
the control of the Governor of that State.
    I think that's a gigantic challenge, an issue that 
ultimately has to be resolved and not resolved when the crisis 
occurs and we learn from it, unless you all make the assumption 
that whenever they go in another State, they're going to be 
called by up by the Federal Government and then they're going 
to be under Federal control. But I sure want if I were Governor 
of the State to know that this National Guard unit was under 
our jurisdiction.
    Mr. Tierney. Is that the same, Mr. Chairman, that first you 
want our football team and now you want our National Guard? He 
uses the same on both of them.
    Mr. Skelton. Would the gentleman yield at that point?
    Mr. Shays. I try to think of a funny response, and there is 
no funny response to that very serious question, that attack on 
the State of Connecticut.
    Mr. Skelton. Let the record show that I have not attacked 
the State of Connecticut.
    As I understand it, there are 10 RAID teams now being 
established; is that correct?
    Mr. Gebicke. That's correct.
    Mr. Skelton. As I also understand it, there are 44 light 
RAID teams throughout our States and territory and it's also my 
understanding that the Senate is proceeding to add to the 10 
RAID teams that already exist; is that correct?
    Mr. Gebicke. It's my understanding too.
    Mr. Skelton. So eventually, Mr. Chairman, you will have 
your wish that every State have its very own RAID team, but we 
are starting out now, as you know, with those that are 
contiguous with the FEMA regions; am I correct?
    Mr. Shays. If the gentleman would yield for a question. My 
sense is we've chosen the 10 FEMA areas, 10 FEMA regions, but I 
don't know what the process was to determine the National Guard 
within each FEMA region and like I look at--in your own State, 
Missouri has responsibility for Montana and so--pardon me? Oh, 
I'm sorry, no. I apologize. That's not--Missouri only has a 
four-State region. Is it Colorado?
    The bottom line, though, to the question--maybe I should 
direct the question to you all. How were the 10 National Guards 
selected? Were they selected based on their compatibility with 
the other States or that they were--had a head start on the 
other States? Do we know? If we don't know, that's all right.
    Mr. Gebicke. Maybe Mr. Pelletier can shed a little light on 
it.
    Mr. Pelletier. I think Mr. Gebicke mentioned the factors 
that would consider the transportation, the receptivity of the 
State and some other factors. We're not aware of any agreement 
among the States or receptivity of the States in that 
particular region to share assets as a factor to consider.
    Mr. Shays. I would just conclude. My concern about this 
would be that this almost requires then that the President 
determine that there is a national interest to federalize the 
National Guard and I--and so maybe that's just a given and 
therefore my question is not all that significant. But I would 
like to think, though, that if they weren't and they were in 
the presence of another State, that they would not be under 
jurisdiction and authority of--that they would be under the 
authority of the Governor of that State, and I would think that 
would be a question that you all would need to look at and we 
need to look at.
    Mr. Gebicke. It might be a question you want to pose to the 
next panel. They might be able to respond to that. They might 
be aware of discussions that have taken place.
    Mr. Shays. I think we'll do that. I note present is the 
ranking member of this committee, Mr. Blagojevich. It's nice to 
have you here. With your permission, I'll go to Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. I'm glad that Mr. 
Blagojevich has arrived because I know that Illinois in large 
part because of his efforts does have one of those RAID teams. 
I was curious why it is that team is placed in Peoria, how the 
selection of the place was made.
    Mr. Gebicke. Can't help you. Probably the next panel could 
help you with that.
    Ms. Schakowsky. And looking at the region, the FEMA region, 
that Illinois is in, I wanted to followup a bit on the 
chairman's questions. What is, then, the responsibility of our 
RAID team, for example, for the northern peninsula in Michigan? 
Is there the possibility because it's in the region that our 
National Guard would be deployed in some way in an emergency 
situation there?
    Mr. Gebicke. Our understanding is that possibility would 
exist, yes.
    Ms. Schakowsky. So the chain of command, though, is unclear 
then in terms of the Governor of the State of Illinois' role in 
that?
    Mr. Gebicke. It's unclear to us at this point in time.
    Ms. Schakowsky. How will that be determined? This seems 
like a major area of confusion here or unclarity that could in 
a real situation be a problem.
    Ms. Borseth. Mr. Pelletier mentioned that there is--one of 
the big compacts is the southern Governors compact that was 
established--there is a southern Governors compact that, I 
think, exists between, I think, 10 southern States that lays 
out a lot of these kinds of issues between the States if one 
State is going to share it's assets with another State.
    There are chain of command issues. There are liability 
issues when a RAID team from one State goes to another State 
not only the harm that they could incur for themselves but also 
harm that could be incurred because of their decisions.
    Those kinds of compacts exist beyond the southern Governors 
compact, and it's my understanding that they're working on a 
national compact; but those kinds of issues are exactly the 
kinds of issues that have to be spelled out in those compacts, 
and we're not sure where either the southern compact or any 
other compact comes out as far as chain of command.
    Ms. Schakowsky. Are there cases where the RAID team is 
viewed as the first responder? Are we always looking at local 
fire departments, et cetera?
    Mr. Gebicke. You're looking at local fire departments as a 
first responder.
    Ms. Schakowsky. And so in every case, then, the RAID team 
is called in by somebody and then the question is under whose 
authority is that somebody that calls them? These are the 
questions that are unanswered.
    Mr. Gebicke. The authority would be there would be a local 
incident commander established, probably a fire chief or 
whatever at the incident site. He usually would make the 
decision to call a RAID team because it's a State asset, so 
that RAID team could be called; but again we have this issue of 
now--they're not going to arrive right away. Depending upon 
where the incident is and where the RAID team is located, it 
might take some time to get there. There might be some other 
assets that are more closely located that the incident 
commander could use at his or her disposal depending upon where 
it is.
    Ms. Schakowsky. And the local commander is determined by 
where it is and who the local authority is but in all cases 
that is who remains in charge?
    Mr. Gebicke. Yes, of an accident. If it becomes obvious 
that there's a weapon of mass destruction or a terrorist, the 
FBI would get the phone call and the Federal Government would 
be involved, because it's a violation of a Federal law would 
get involved much sooner.
    Ms. Schakowsky. What's the timeline for working out all 
these questions of chain of command, et cetera, jurisdiction?
    Ms. Borseth. The teams won't be operational until January 
2000. Once they become a part of the State, there's already a 
procedure for an incident to unfold, the incident commander 
would go to a State if they run out of assets or the local 
jurisdictions around them don't have enough assets. Those kinds 
of things are pretty well established.
    The RAID teams are just being integrated into the State 
emergency plans, and it would be up to the State to deploy them 
whenever a local incident commander would see them as a 
necessary part of their response. So those things are not too 
much in question. There's a pretty defined process for 
notifying all of those assets.
    Ms. Schakowsky. Thank you very much.
    Mr. Terry [presiding]. Mr. Blagojevich.
    Mr. Blagojevich. I'll be very brief. I just want to make a 
short statement and that is that--I think what you're doing 
obviously is very, very important and my question to you 
regarding my own city of Chicago is the chief of hazardous 
materials for the Chicago fire department testified before the 
Research and Development Subcommittee of the House National 
Security Committee in March 1998 and he said, ``We learned that 
the National Guard will take on a larger role in preparedness 
and response.''
    We in Chicago applaud that decision because we have had 
nothing but eager cooperation and great success in dealing with 
the local Illinois National Guard. They have responded to our 
call and shown us that they can produce if just given a chance. 
As a first responder, we must work closely with the Guard to 
determine how they can best assist us. We need a conduit which 
will bring the Federal Government a regular support system to 
ensure that we are always prepared.
    Can you talk about that idea of a conduit and how they 
would be able to work in a corresponding fashion, the State 
National Guard to the Federal aspect and the city of Chicago's 
fire department?
    Mr. Gebicke. You mean how they would work together is your 
question? How they'd work?
    Mr. Blagojevich. Yes.
    Mr. Gebicke. Basically, it would be the local fire chief in 
this case. He'd try to take control of the situation. If he 
felt he had the capabilities to control the situation and to 
take any assets available, then he would do it on his own. If 
he felt that he needed more assistance, then he could call the 
RAID team.
    He could call other Federal responders to assist. That 
would be a decision he would have to make depending upon the 
incident and the assets that he has available to him. It would 
be the same decision process that any incident commander would 
make. It would probably be an easier decision maybe in a less 
populated area because the assets possibly wouldn't be as 
robust as they would be in Chicago.
    Ms. Blagojevich. How do you make sure they're doing what 
they're supposed to be doing at a local level like a big place 
like Chicago? How, for example, would we keep an eye on the 
Chicago fire department doing the sorts of things we'd like 
them to do?
    Mr. Gebicke. We know that the--I don't know this for a 
fact, but you'd like to think that they've received the 
training that they need, that they have the equipment, that 
they have protective suits--and I don't know what the situation 
is in Chicago, but they probably have a special hazardous 
materials group that would even have more advanced training and 
equipment than just the fire department itself.
    Mr. Blagojevich. But there is no mandate from us to require 
that of them?
    Mr. Gebicke. Not that I am aware of. You are aware that the 
Federal Government under DOD's auspices right now is training 
120 of our major State teams to train them to deal with 
hazardous materials as well as provide equipment to improve 
their training for hazardous materials.
    Ms. Borseth. First of all, we spoke with your chief of 
hazardous materials in Chicago, and I am sure that he could 
handle anything. Chicago is one of the Nunn-Lugar cities, and 
it has received a lot of training. They had a robust capability 
before they received that training.
    Chief Eversole is really aware of what could occur in a 
weapons of mass destruction event and is very--has taken a very 
proactive role in training his people to be well aware of the 
capabilities and the possibilities that exist in those 
situations. There are a lot of other HAZMAT chiefs across the 
country that are trying to do the same thing.
    There are other smaller, usually HAZMAT, capabilities that 
aren't anywhere near where Chicago is or Fairfax County. But 
that is what we don't know. We don't know the range of 
capabilities that exist in the local communities. So you have 
Chicago on one end, but you have the example that a friend of 
mine likes to use, Howling Dog, WY, on the other end and 
somewhere in the middle is the majority of the HAZMAT teams.
    Mr. Blagojevich. Thank you very much.
    Mr. Terry. One last question. GAO expresses a concern that 
RAID teams will have difficulty in maintaining their 
proficiency after they receive training because they won't have 
opportunities to practice under actual conditions. Comment 
further on that. How do they maintain proficiency, if you could 
quickly state?
    Mr. Gebicke. In the State of Pennsylvania--the State of 
Pennsylvania are going to use their National Guard RAID team to 
assist them in all HAZMAT incidents. They would also use them 
as a primary asset if there is a weapon of mass destruction 
incident.
    There are some specialized positions on the National Guard 
RAID team, and one is called spectrometer and one who has to 
operate this relatively expensive piece of equipment. It takes 
daily calibration, and it takes a lot of training.
    I think it is those types of positions that might be more 
difficult to maintain skills than the more generalist positions 
on a National Guard RAID team.
    Mr. Terry. Thank you. This panel is dismissed with the 
committees' appreciation. The next panel can organize while we 
break for our vote recess.
    [Recess.]
    Mr. Shays. I would like to call this hearing to order and 
announce our second panel: Mr. Charles Cragin, Acting Assistant 
Secretary for Reserve Affairs, Department of Defense, 
accompanied by Major General Roger Shultz, Director, Army 
National Guard and Brigadier General Bruce Lawlor, Deputy 
Director for Military Support, Director, Consequence Management 
Program Integration Office, Department of the Army; and also we 
will hear testimony from Major General John H. Fenimore, 
Adjutant General, New York Air National Guard.
    As you know, gentlemen, we swear our witnesses in so please 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Thank you. Mr. Cragin. You have to be out of 
this facility when?
    Mr. Cragin. By noon.
    Mr. Shays. You will be out at noon and so now you can 
relax.
    I would invite you to testify. I am sorry that the other 
Members are not here yet.

 STATEMENTS OF CHARLES CRAGIN, ACTING ASSISTANT SECRETARY FOR 
 RESERVE AFFAIRS, DEPARTMENT OF DEFENSE, ACCOMPANIED BY MAJOR 
GENERAL ROGER SHULTZ, DIRECTOR, ARMY NATIONAL GUARD; BRIGADIER 
  GENERAL BRUCE LAWLOR, DEPUTY DIRECTOR FOR MILITARY SUPPORT, 
 DIRECTOR, CONSEQUENCE MANAGEMENT PROGRAM INTEGRATION OFFICE, 
  DEPARTMENT OF THE ARMY; AND MAJOR GENERAL JOHN H. FENIMORE, 
         ADJUTANT GENERAL, NEW YORK AIR NATIONAL GUARD

    Mr. Cragin. Thank you very much for inviting General 
Shultz, General Lawlor, and me to participate in this very 
important hearing. We are also pleased to have Major General 
John Fenimore, the Adjutant General of New York join us on this 
panel.
    By way of background, I should also point out that Major 
General Shultz, prior to assuming his position, served as the 
Deputy Adjutant General of the State of Iowa; and during that 
time he led the tiger Team, which ultimately was responsible 
for preparing the initial plan that was presented to Secretary 
Cohen, which really was the base document for proposing the 
Reserve component integration, including the RAID teams.
    Brigadier General Lawlor, the Director of the COMPIO today, 
is also a National Guard officer from the State of Vermont. And 
I should also point out that the Adjutant Generals of 23 
States, including Connecticut, also serve as the directors of 
State emergency management for their respective States. So you 
really have a great deal of State representation when we are 
dealing with this issue.
    In March 1998, Secretary Cohen announced an initiative to 
better prepare the Department to support the Nation in the face 
of the growing potential for an unconventional terrorist attack 
at home. This initiative is a time-phased multi-year effort to 
not only develop new RAID team capabilities, but more 
importantly to task, equip, and train existing military units 
in 16 functional areas to provide support to civil responders 
after a weapons of mass destruction attack.
    This ongoing effort is one of the Department's highest 
priorities. Secretary Cohen has also made it clear that he 
wants the Guard and Reserve front and center in DOD's response 
plans for WMD terrorism support here at home.
    As a result, the U.S. Military Reserve components are now 
being integrated into our overall national preparedness 
strategy. National Guard and Reserve members are uniquely 
suited for this initiative because not only are they a source 
of pretrained manpower and expertise, they also are 
geographically prepositioned in nearly 4,000 communities across 
our Nation.
    Given their proximity to likely centers of attack as well 
as their familiarity with local emergency response plans and 
procedures, the Guard and Reserve have an inherent response 
capability. They have well-established links to first 
responders, to fire, police and medical emergency personnel, 
who are always the first to arrive at the scene of any 
incident. By tapping into and leveraging these inherent 
strengths, the DOD can improve its overall capabilities to 
provide military support to civil authorities. To ensure the 
integration of the National Guard and other Reserve components 
into our national WMD preparedness strategy, the Reserve 
Component Consequence Management Program Integration Office has 
been established within DOD and is under the direction of 
Brigadier General Lawlor.
    This office coordinates the identification, training, 
equipping and exercising of Reserve component WMD assets, and 
manages their integration in the national WMD response plans. 
The Office of the Assistant Secretary of Defense for Reserve 
Affairs provides program direction and oversight for the 
integration of Reserve Forces in the military support for civil 
authorities.
    The underlying premise of this initiative is that disaster 
relief is and must remain primarily a State mission. Due to its 
historic role in performing disaster response in relief 
missions in the State capacity, that is before a disaster 
situation has been federalized by Presidential declaration, the 
National Guard will be called upon to play a vital role in this 
initiative, but the other Reserve components will be equally 
engaged when Federal Reserve response assets are requested by 
State Governors.
    Should a weapon of mass destruction actually be used, the 
resources and energies of local first responders along with 
those of their counterparts at the State level may be very 
quickly overwhelmed or exhausted given the catastrophic 
consequences that can be expected in such events.
    And with all due respect to my colleagues from GAO, I find 
it difficult to compare and contrast a catastrophic WMD event 
with an industrial HAZMAT materials event. I would suggest that 
they are not similar, but in many instances will be dissimilar 
based upon the catastrophic nature of that event. Local and 
State officials may urgently require the provision of 
additional Federal assets, including military support.
    If or when it comes time for the DOD to lend a hand, the 
role of the Department will be one of support and assistance 
and the authority of the local incident commander will not be 
undermined. By incorporating and leveraging existing forces 
into current WMD response planning, while creating only one 
type of new unit, the RAID teams, this initiative is highly 
cost effective.
    RAID teams will help to fill some of the technical gaps in 
the civilian first responders' WMD response tool box. Given the 
press of day-to-day local emergency response, the majority of 
our Nation's first responders will have limited time and 
resources to acquire and sustain the expertise needed to 
precisely identify the nature of the WMD attack and to 
determine the latest protocols for safely responding to it.
    RAID teams can help because they will be dedicated to 
having just such expertise. Without such capabilities, mass 
confusion and lethal delays would very likely result. The DOD, 
as you have heard, is in the process of standing up 10 Rapid 
Assessment and Initial Detection teams comprised of 22 highly 
skilled full-time and well-trained and equipped National Guard 
personnel.
    Let me emphasize one point--and I think the chart from the 
GAO makes the point as well--if you see the white balloons or 
clouds, those are characterized as State resources. And you 
will notice that the RAID teams are located in the State 
resources because that is what they are first and foremost, a 
novel partnership albeit but truly first and foremost a State 
resource. They are only secondarily a Federal resource.
    And as you know, one RAID team will be stationed within 
each of the 10 FEMA regions; and I think it is important to 
call your attention, Mr. Chairman, to the comments of the 
Federal Emergency Management Agency contained in the GAO report 
on page 45 where Ms. Light, my colleague who I communicate with 
on a regular basis, made the observation, she said in the last 
concluding sentence of the major paragraph, ``on these last two 
points, the report must distinguish carefully between the Guard 
in its State status and the Guard when federalized.''
    She is making the point that the RAID teams are not 
contemplated to be initially part of the Federal response plan. 
The RAID teams are contemplated to be a State asset and a State 
resource to be utilized by Governors before they come to the 
Federal Government and ask for additional assistance. I think a 
very important point is being made by the FEMA.
    RAID teams are being established with State and local 
responder needs in mind. Specifically, the RAID teams will 
provide advice to incident commanders, they will assess and 
advise on the requirements for follow-on forces needed to 
supplement the response operation, and they will help the 
incident commander make accurate expedited requests for that 
assistance through the emergency response system, local, State 
and Federal.
    Each team member is now in the process of completing more 
than 600 hours of extensive technical training. The teams will 
also be equipped with state-of-the-art communications, 
detection, and analysis equipment, as well as computer models 
to help assess and project the affected areas for various types 
of attacks.
    We expect that these teams will be available for deployment 
by January of the year 2000 if needed by a State's Governor who 
can deploy them to assist local agencies quickly before 
national disaster declarations or Federal assets can be 
deployed to the scene. The existence of interstate compacts 
facilitates Governors in adjoining States to deploy their 
National Guard members to surrounding States as needed before 
Presidential declaration occurs.
    And as you observed, who would have operational control of 
these National Guard personnel when they migrated to another 
State, say for example from Massachusetts to Connecticut? The 
National Guard shares resources on a regular and continuing 
basis around the United States. And generally speaking, when 
National Guard personnel go from Georgia to Florida, for 
example, they fall under the operational control and command of 
the resident commander, which would be the Adjutant General of 
the State in which they are operating.
    Our RAID teams sustainment training will involve at a 
minimum quarterly exercises, two of which must be conducted 
outside the State in which they are located. Additionally, at 
least two exercises annually will be conducted in conjunction 
with FEMA regional personnel.
    The teams are also available for use as a Federal asset 
secondarily to respond as needed through the Federal response 
plan. Complementing and supporting these RAID teams will be 
units specially trained and equipped to perform reconnaissance 
and decontamination missions. These units will be drawn from 
existing Reserve component force structure and capabilities. 
Sixty-five reconnaissance and 127 decontamination teams will 
receive additional training and equipment in fiscal year 1999 
and fiscal year 2000 to perform these missions. General 
Lawlor's office, the----
    Mr. Shays. Let me suggest that you conclude. In making my 
promise to you----
    Mr. Cragin. Let me just say, Mr. Chairman, although we can 
never be fully prepared to respond to all types of events in 
all locations and wish we had the fiscal resources so we could 
establish a RAID team in every single firehouse in America with 
the advanced technology that it brings to bear but we know that 
we can't. We have, however, begun to lay the foundation for an 
integrated across-the-board response. And the continued 
partnership for a WMD preparation among local, State and 
Federal agencies will be critical to our success.
    [The prepared statement of Mr. Cragin follows:]

    [GRAPHIC] [TIFF OMITTED]59837.012
    
    [GRAPHIC] [TIFF OMITTED]59837.013
    
    [GRAPHIC] [TIFF OMITTED]59837.014
    
    [GRAPHIC] [TIFF OMITTED]59837.015
    
    [GRAPHIC] [TIFF OMITTED]59837.016
    
    [GRAPHIC] [TIFF OMITTED]59837.017
    
    [GRAPHIC] [TIFF OMITTED]59837.018
    
    [GRAPHIC] [TIFF OMITTED]59837.019
    
    [GRAPHIC] [TIFF OMITTED]59837.020
    
    Mr. Shays. Thank you. General Fenimore, thank you very much 
for being here. I think it is important to have you put your 
statement on the record before we ask questions.
    General Fenimore. Thank you for inviting me here today. I 
will be speaking to you not from a DOD perspective but more 
importantly from my standpoint, the perspective of someone who 
runs the National Guard in one of the States and perhaps more 
importantly, someone who is responsible for emergency 
management.
    Mr. Shays. That is important that you do it from that 
perspective.
    General Fenimore. I will quickly answer the questions that 
you put to me in your letter of invitation and just summarize 
why we think it is that the RAID team is so critical for our 
responsibility in New York State.
    You asked, first, about the current status of 
implementation of our RAID team. As of this date, we are a 
little more than 50 percent trained; most of the technical 
training has been done, and we are beginning in July the 
combined training out in Missouri which will be completed. That 
is the operational training. That should be completed in 
December so the team can be operational in January.
    Training is going very well, in part, I think, because we 
along with other States have advertised nationwide for the best 
people we can get on this team. We in New York have been able 
to attract two former members of the Marine CBIRF Bird team. We 
have a Navy nuclear technician from their nuclear sub program. 
We have medical people and a host of people who have impressive 
credentials in their own fields; and perhaps because of that, 
they have done extremely well in the training.
    Morale couldn't be higher. It is the most energized people 
that I think I have ever worked with. You asked about the role 
and mission of the RAID team, and I think that has been 
articulated by secretary Cragin.
    I would add only an emphasis that this RAID team is going 
to be an integral part of our State response plan. It will be 
written into all of our protocols with not just New York City, 
which has robust capability, but with the State police and with 
the State Office of Fire Prevention and Control, which is 
responsible for training all of the fire fighters in New York 
State, of which there are many.
    Threshold for employment of the RAID teams. We are still 
working that out, but I can say generally speaking what will 
trigger the response of a RAID team will be notification from 
any emergency manager, be that person city, county or State or 
from law enforcement, State police or local law enforcement, 
from EMTs, volunteer firemen, whoever is on the scene that sees 
anything that looks like a HAZMAT or something that they don't 
understand that has happened.
    We are developing protocols that will, with cooperation of 
these other State agencies, bring the RAID team to the scene as 
soon as possible. In terms of the legal status of these teams 
while they are responding, it won't be any different than the 
legal status of other National Guardsmen responding to any kind 
of emergency.
    Finally, you asked how we are going to be employed with 
regard to the weapons of mass destruction, including command 
and control structures. As you know, they will be on alert 24 
hours a day. We will run it in three shifts, and they will be 
employed by ground vehicle or by helicopter or by C-130, 
depending on how far away the incident happens to be.
    That gives us a tremendous advantage over other Federal 
responders in that sometimes weather doesn't permit takeoffs or 
landings. Airplanes can break, and our team is here. That is 
very important to the people of New York State.
    In terms of the command and control, as you have heard 
today, they report to the incident commander and they are a 
tool of the incident commander. And even if our team responds 
to your State, which it may well do, when our team goes into 
Connecticut, that team will work for whoever the incident 
commander is onsite in Connecticut.
    Quickly, if I might go to the fundamental reasons why we 
think in New York this RAID team is so critical to our ability 
to respond, principally to weapons of mass destruction, but 
also to serious HAZMAT and biological incidents, and the first 
reason is response time. We use as a guide 48 to 72 hours for 
the arrival of the first Federal response of any magnitude.
    I understand--I heard for the first time this morning that 
they got to Oklahoma in 15 hours. That is breathtakingly fast, 
and I commend them; but that is not normally the way it works, 
and that is not a criticism. It just takes longer getting your 
request up through the State system up to the Federal 
Government and getting a response.
    So our practical experience tells us that the Federal 
responders just won't be there in the kind of time that we 
need. The RAID teams will be there much more quickly. They are 
not first responders, but they are--in a tiered-response 
situation, they are the second level of response and they will, 
along with other State responders, be there well in advance of 
any Federal responders. And time in these kinds of situations 
equates to lives saved and property saved, less importantly.
    The second reason is capability. I keep hearing that this 
is a redundant capability. Absolutely not so. They will have 
sensing equipment that can sense not only standard industrial 
chemicals, but the full spectrum of weaponized chemicals. And I 
haven't heard a whole lot about biological sensing, and they 
will have the capability to do that.
    Yes, I understand if there is no warning; you may not know 
for days what the bioagent is that has been used on you, but 
sometimes terrorists, at the time that they disburse something, 
will announce to the media to create panic and confusion. In 
those cases, the biological sensing abilities of the RAID teams 
is very important to the State of New York. New York City is 
getting a similar capability. I have seen the modeling they are 
doing. It is pretty sophisticated. That is only in New York 
City. The rest of the State doesn't have that capability.
    An additional capability that the RAID teams have is a 
communication capability that we do not have in the States, 
specifically an ability to communicate with anyone, to take 
anyone's transmission and relay it on whatever frequency they 
want, to whoever they need to relay it to. I don't know if New 
York City has that capability but the rest of the State 
certainly does not and that will be a very, very useful tool. I 
can remember the confusion and chaos surrounding the response 
to TWA 800, which happened on our watch. Had we had that 
capability, it certainly would have made things work a little 
more smoothly.
    Finally, force protection. These people will be able to 
tell the first responders what they have got, where they ought 
to be standing. And they can act as force protection, not only 
for our State responders and ultimately Federal responders, but 
hopefully for the people who get there first, even though 
understanding that they are not there in the first couple of 
hours at least.
    Finally--maybe this is one of the most important things--
they are going to be part of an integrated State response team. 
As I am sure many of you can remember, the attempted rescue in 
the desert in 1981 where we tried to get the hostages out of 
Iran. It didn't work in large measure because the people 
conducting that rescue had not exercised together. They had not 
worked together.
    This is so important, and we have seen this over and over 
again at the State level. I can speak only for our own State, 
but where you have responders working together who have done so 
routinely, things work incredibly smoothly. When you bring 
another group of responders in who have not been playing with 
the others before, there is confusion.
    These RAID teams are going to be part of our integrated 
State response. They will be helping to develop the exercises, 
and they will be exercising with these other first reponders 
all over the State to include New York City, who we are working 
with; and it is going to make a dramatic impact on our ability 
to respond to these kinds of incidents.
    Originally, the people in the State, senior responding 
officials, were not sure that they needed this RAID team. Once 
they realized it was a tool for them, all of a sudden they 
thought it was a pretty good idea. Our Office of Fire 
Prevention and Control and the State police in the city of New 
York, they are enthusiastic about these teams. The city of New 
York is less enthusiastic perhaps because they have their own 
capability, but we are working with Mr. Jerry Hauer and his 
operations people and there are cases, there are scenarios 
where they will be using our assets.
    Since I am probably about out of time, I would just like to 
add that people have not understood what this is all about and 
that has probably brought on some of the initial confusion and 
just a lack of understanding of how these teams can be helpful.
    As recently as 2 or 3 months ago, most of the Adjutant 
Generals in the country did not fully understand what these 
teams were all about. But Friday of last week at our spring 
meeting out in Indianapolis, all of the Adjutant Generals 
talked about the RAID teams, and we passed a resolution 
unanimously urging the Congress of the United States to fund a 
full-time RAID team in each of the States and territories 
because we understand now how important these will be for our 
overall State response. Thank you very much.
    Mr. Shays. Thank you. I have a lot of questions and we 
probably will not get through all of them.
    [The prepared statement of Major General Fenimore follows:]

    [GRAPHIC] [TIFF OMITTED]59837.021
    
    [GRAPHIC] [TIFF OMITTED]59837.022
    
    [GRAPHIC] [TIFF OMITTED]59837.023
    
    Mr. Shays. Let me start with you, Mr. Cragin, and say why 
shouldn't Congress take the conservative approach and wait 
until we have these 10 RAID teams in operation and thoroughly 
test and evaluate their contribution before we look to expand 
them?
    Mr. Cragin. Mr. Chairman, I can tell you that Secretary 
Cohen asked the same question when the Tiger Team report with 
its recommendations to field a RAID team in each of the 50 
States and four jurisdictions, territorial jurisdictions, was 
provided to him. His response was we need to walk before we 
run. And we need to----
    Mr. Shays. You are just repeating my question. What is the 
answer to it?
    Mr. Cragin. We are doing exactly that. We have fielded 10 
teams. We have proposed in the President's budget for this year 
the fielding of an additional five teams.
    Mr. Shays. But the point that I am asking is why wouldn't 
it make sense to see--we have not yet seen them in operational 
status, and why wouldn't we want to see them in operational 
status before we decide to make more of them? That is the 
bottom line question.
    Mr. Cragin. Well, I think, Mr. Chairman, it is because we 
have been persuaded of the efficacy of these teams. We have 
been persuaded that they will work, and they will work as 
planned. Obviously, we will evolve as we move through this 
process. But as I say, we are fielding it on a fairly 
programmatic basis, recognizing that it takes time to get these 
teams hired, and then an additional year to get them up to 
speed.
    Mr. Shays. So the answer to the question is that you have 
confidence in the--conceptually, you have confidence in these 
teams and you have decided to bring more into operation and not 
wait for operational evaluation? That is really the answer. And 
your answer, I think, is that you have such confidence that you 
don't want to wait.
    Mr. Cragin. I don't think that I can disagree with any of 
the words that you have put in my mouth, Mr. Chairman.
    Mr. Shays. Aside from the 10 States that are receiving the 
RAID team money, how many more States have requested them? And 
by the way, I have no problem with either generals jumping in.
    Mr. Cragin. To date we have had requests from 24 State 
jurisdictions. As I indicated, Secretary Cohen and President 
Clinton have requested authority for an additional five RAID 
teams.
    Mr. Shays. As they are added, what happens to the so-called 
RAID light teams?
    Mr. Cragin. They would essentially go away as a, RAID light 
team. As you know, Mr. Chairman, the DOD did not request the 
RAID light teams. They were provided to us through the largess 
of Congress, and we were directed to implement them.
    Mr. Shays. I basically, conceptually say you can have--we 
can have five crack RAID teams, spend all of the resources 
necessary, have them be full time--I make an assumption that 
the National Guard teams are not full time.
    Mr. Cragin. You are making a fallacious assumption then, 
sir. They are full-time military personnel.
    Mr. Shays. OK, that is important to know. That still 
notwithstanding, one logic would be to have crack teams, those 
who are the most qualified to take these positions, then you 
could dilute it a bit and have 10 and dilute it more and have 
20, and I don't mean that in a derogatory way.
    The more you expand--conceptually you might agree that you 
may not have the best and brightest, but still very capable 
people. My point in asking the question, given that they are 
going to have to travel to get there, why wouldn't it be 
better--if I were in Hartford or in Bridgeport where I live 
now, and I knew that you were bringing in a team, I would want 
the best and the brightest there. And I wouldn't care if they 
came from Kansas City or Seattle; I want the best.
    How does that--the bottom line. You get the gist of my 
question. How do you evaluate that you would have more rather 
than just have a few and have them be top notch? That is the 
question.
    Mr. Cragin. I don't accept the premise. I don't know 
because we have more than five teams that we somehow dilute the 
expertise of the total universe of teams. I think we are 
confident that we can deploy the best and the brightest in 
every single one of the teams that we field. Obviously to the 
extent you have fewer teams, as the GAO correctly pointed out, 
you have a much longer response requirement.
    Mr. Shays. To some measure that is true, but with airplanes 
it is not as true. Where is your RAID team located?
    General Fenimore. Our RAID team is located in Schenectady, 
NY, because we have the intersections of the north-south and 
east-west interstates right near there, and we also have 
helicopter and C-130 access.
    Mr. Shays. And your largest airport is where?
    General Fenimore. They would leave from the Schenectady 
airport which is 9 nautical miles from the Albany airport, and 
between the two airports we have C-130's and helicopters.
    Mr. Shays. For instance, they could get to Chicago pretty 
quickly.
    Mr. Cragin. We deploy from Peoria to get to Chicago. Every 
minute--I don't think that anybody disagrees that ideally if 
you can get a RAID team on the scene working for the incident 
commander at the git-go, you are obviously in a better position 
because you can do that initial assessment even more rapidly. 
So the more you dilute the proximity of the teams by reducing 
the number, the more you increase the normal response time for 
those teams to get to the scene of an incident.
    Mr. Shays. I want to go to Mr. Blagojevich, but I want to 
say conceptually we have these tradeoffs, and they are clear 
tradeoffs. And one is to have truly crack teams and then give a 
little on time. The other is to have teams in all 50 States, 
have the local control or State control a little more obvious.
    But I simply can't believe that they would be as good as a 
few that are just totally focused, and your ability to be part 
of this team is very difficult. I mean, you are like a SEAL. 
You have to have proven yourself time and again. And I am not 
passing judgment on which I prefer, I am just trying to 
understand the logic that you all are going through. And it 
seems to me that you have decided that a presence in every 
State makes sense, even before we know operationally how these 
are going to work.
    Mr. Cragin. Mr. Chairman, the Secretary of Defense has not 
decided that we need a presence in every State. That has not 
been the position of the Department. The position of the 
Department is we have requested five additional RAID teams for 
deployment in fiscal year 2000. There was a Tiger Team report 
that I mentioned that General Shultz was the director of that 
made a recommendation to the Secretary for 54 teams. The 
Secretary did not accept the report. He received the report. 
And that is a very important word. He received the report and 
then he directed the Department of Defense through a budget 
decision to implement.
    Mr. Shays. Congress is doing this with the red light. We 
have 25 States that have made requests. I conceptually can 
argue that being near is better than being a little further 
away. Yet as I sat down, I am reevaluating how I came down on 
this. You made in your statement two comments which I will come 
back later on.
    I wanted to give you a sense that I would love to know your 
concept of the issue of--you made this analogy that dealing 
with one kind of a disaster in an industrial chemical exposure 
is much different than dealing with a chemical exposure by a 
terrorist. I am not quite sure that I agree with that. They are 
different, but I think there are tremendous similarities. The 
advantage it seems to me is that the local people have 
practical experience dealing with them. The disadvantage that 
we have in the chemical is that most of it is theoretical 
rather than practical. General Shultz.
    General Shultz. Thank you, Mr. Chairman. As we develop the 
concept of the RAID idea in the first place, we went to first 
responders. We talked to Chief John Eversole from Chicago. He 
said if you are going to create this capability and you want to 
back us up, do at least a chem-bio detection and help us in 
those areas where we are not skilled today, chemical and 
biological on the high end of the releases we are talking 
about. So the idea of the RAID design came from first 
responders, in this case Chief Eversole.
    Mr. Shays. I am sure that he said that is a skill that you 
add, but I am sure that he didn't say that they were radically 
different.
    General Shultz. What he said, in his department today, he 
does not have the ability to detect and respond to the extreme 
chemicals that we have in terms of weaponized or chemical 
biologic agents.
    Mr. Shays. You are on, Mr. Blagojevich.
    Mr. Blagojevich. Thank you, Mr. Chairman.
    Mr. Shays. I am making an assumption that General Lawlor 
and General Shultz, you can stay past noon; and we have no 
problem with you, Mr. Cragin, leaving before noon. I also have 
no problem with you summarizing how you feel on this issue so 
that we do not leave something hanging before you leave, and we 
will give you time to do that.
    Mr. Blagojevich. Thank you, Mr. Chairman. The old saying, 
will it play in Peoria--evidently the RAID teams think that it 
does because that is why they are in Peoria. Many of us from 
Chicago think you ought to give us some of the RAID teams 
because we have a much bigger population. The Chicago 
metropolitan area is the third largest in the country.
    Having said that, let me ask you a question about the local 
aspect and the first responders. There are about 600 HAZMAT 
teams active as first responders. Is that fair to say?
    Mr. Cragin. I will take GAO at its word on that.
    Mr. Blagojevich. So the question is why shouldn't we use 
some of the RAID team funding to enhance the capabilities of 
those 600 HAZMAT teams? And how do you respond to the opinion 
that this money would be better spent enhancing the 
capabilities of those local responders?
    Mr. Cragin. I think if we had unlimited resources, we 
should put a RAID team in every firehouse in America that would 
have that specific expertise and that specific equipment. We 
don't have those resources.
    What we do and what you do every day in your decisionmaking 
is you compromise. The Nunn-Lugar-Domenici Domestic 
Preparedness Program, a program funded by Congress, does in 
fact provide training to first responders in the 120 largest 
cities in America. As General Shultz said, when we talk to 
these first responders and ask them to identify capabilities 
that they did not have, the capabilities that were not in 
existence were the ones that we designed into these RAID teams 
as a State resource, not as a Federal resource that could in 
fact serve at the behest of the Governor to respond within his 
jurisdiction and in the jurisdiction surrounding it.
    Mr. Blagojevich. General Fenimore, do you have any thoughts 
on that?
    General Fenimore. Yes. There are 600 HAZMAT teams, I will 
give you that. But how well are they actually trained? Most of 
them are trained reasonably well. But I am reminded of the 
32,000 or 33,000 fire departments in the United States, about 
27,000 are volunteer fire departments, and I am familiar with 
their training, including their HAZMAT training because I spent 
many years as a volunteer fire fighter myself. And while they 
are trained to deal with basic HAZMAT situations, they don't 
have the expertise to deal with some of the more exotic 
chemicals that are used by terrorists, and they are certainly 
not trained and have no equipment to deal with any potential 
biological incident. So we don't see the RAID team as being 
redundant or duplicative.
    It provides a capability that we do not possess, and even 
in New York City where they have one of the most robust 
capabilities in the Nation for dealing with these kinds of 
situations, even they admit that there are situations where 
they would like to be able to call on our RAID team to do 
assessments because we could have combined chemical and bio 
situations. There could be multiple chemical releases and in 
those cases they would definitely be calling on our RAID team 
to help them out. So we see it as a critical middle-tier 
response as part of the State response.
    Mr. Blagojevich. Let me just--I have this idyllic vision of 
small towns with the volunteer fire departments. Do you 
remember the Frank Capra movie Mr. Deeds Goes to Town? He was 
from a small town, something Falls, and he had this thing 
about--he came to the big city, and he wanted to see the fire 
trucks go by because he was a volunteer fire department in a 
small town.
    And I look at that character, and I think he is probably 
the personification of these small town fire departments. He 
would not be trained to deal with something as technical and 
complicated as this.
    On the other hand in Chicago, particularly with our unique 
history with fires--and we lost our city in 1873 because of a 
big fire--it makes sense to me that the GAO and the Chicago 
fire department would take issue with the statements that have 
been made regarding the HAZMAT teams, that they do not have the 
basic capability to detect and identify industrial chemicals 
and mitigate the effects of a chemical emergency.
    GAO claims this is exactly what they are trained to do, 
places like the Chicago fire department. If that is true, 
shouldn't we provide some funding to those HAZMAT first 
responders as opposed to, for example, having RAID teams in 
Peoria?
    General Fenimore. I agree that they are trained to handle 
those basic HAZMAT situations. I don't believe that I said that 
they are not. What they are not trained to do is handle those 
situations involving weaponized chemicals, specific chemicals 
used by terrorists that are not standard industrial chemicals. 
They don't have that kind of training, and the people that I 
know in New York State, to include the Office of Fire 
Prevention and Control, the individuals that run that 
organization which is responsible for training all of the fire 
fighters in New York recognize, while they can handle most 
HAZMAT situations, there are some weaponized chemical 
situations that they are not qualified to detect and they need 
more training to be able to deal with that and frankly they 
need the protective equipment.
    General Lawlor. May I respond to that?
    I think it is really important for us to recap what the 
RAID team brings to the scene of the incident. Really, when you 
strip away what we have been discussing, it brings two things.
    First, it brings a sophisticated communication system. One 
of the things that we found all across the country--my office 
also runs the domestic preparedness program, training in those 
120 cities. One of the things that we find is that these 
communities cannot talk to each other. In some cases, the 
police cannot talk to the fire department within the same 
community because of different communications systems that have 
been purchased over the years, different frequencies.
    One of the things that we set out to do when we constructed 
this team was to create a capability that would allow the first 
responders from multiple jurisdictions in the event of an 
intercity compact, intercounty compact, to talk to each other 
and also to be able to talk to our expertise, whether that 
expertise be resident at the USAMRIID or CDC or the chemical 
school, and also enable them to talk back to whatever follow-on 
forces might be needed on the scene. That is a capability that 
does not exist today. I think I can say that with a fair degree 
of confidence because we are building it. The ability to create 
that interoperability at the local level is an enormous asset, 
and I think General Fenimore alluded to it earlier; but you 
cannot simply underemphasize the value of communications in 
this kind of an incident.
    So the first thing I would suggest to you is that the RAID 
brings to the table a very sophisticated communications 
capability, and that is No. 1.
    The second thing that RAID brings to the table is an 
analytical capability and that is--to put a fine point on it, 
agent detection. Whether that agent is biological, we are 
building in the capabilities to detect biological agents, and 
people keep talking about chemical threat, but we cannot 
dismiss the biological threat. We are building in that 
capability. And I know of only one other unit in the entire 
United States that has that capability.
    And we are building in two types of sophisticated chemical 
detection capabilities and also radiological detection 
capabilities. Those capabilities with all of these 
organizations probably do not exist except for a couple of 
highly specialized military units. So most of these 
organizations do not have either of those two capabilities.
    Were you to duplicate those capabilities for the 600 
departments, the cost would be enormous because you are now 
talking probably approximately $5 million to purchase the 
equipment and to get the necessary training on the equipment, 
multiply it by 600, and that doesn't address the issue of 
whether the coverage is there because the 600 HAZMAT teams may 
not, and we have not run the statistics or the analysis to 
know, but may not have the same coverage that you are now 
receiving with the RAID teams.
    So we think this brings a unique capability to this 
particular fight, and it is one that would be very, very 
difficult to duplicate across the country throughout all of the 
HAZMAT communities.
    Mr. Shays. Mr. Cragin, I want to be respectful of my 
commitment to you. Do you have anything you want to say before 
we continue this process?
    Mr. Cragin. First, Mr. Chairman, I appreciate you 
permitting me to retire prematurely. I am well represented by 
my special assistant, Ellen Embrey, who works these issues day 
in and day out, and I am sure if there is any critical question 
that my colleagues can't field, Ellen will be able to help out.
    Mr. Shays. Do you want her to come to the table? She is 
shaking her head and you are nodding your head. We are going to 
call you up and swear you in.
    Mr. Cragin. She is an excellent colleague of mine and works 
in this field.
    Let me just say, Mr. Chairman, that I think part of the 
confusion that you've seen and heard--and we have had this 
discussion on several occasions--is because of the real novel 
approach that the Secretary has taken with respect to these 
RAID teams. This is the Department of Defense, a Federal 
agency, developing a State resource that is going to be 
utilized primarily by the States. And I think that has taken 
people some time to appreciate what is being developed and how 
it is going to work.
    Frankly, the more information that we get out throughout 
the United States, the more people recognize and appreciate the 
utility of this sort of expertise being available throughout 
America.
    Mr. Shays. Thank you. Your statement was very helpful. I am 
sorry that we needed to draw it to a conclusion, and we 
appreciate your answers to the questions.
    I think what we will do is invite your colleague to come to 
the table.
    Mr. Cragin. She always wanted this opportunity, Mr. 
Chairman.
    Mr. Shays. Could you state for the record your title, and 
first let me swear you in.
    [Witness sworn.]
    Mr. Shays. Note for the record that you have responded in 
the affirmative. It may be that you don't have anything that 
you want to say, but it would be nice to take care of that 
business now and have you be here. If you would state for the 
record your name and title.
    Ms. Embrey. Ellen Embrey. E-M-B-R-E-Y. I am the Special 
Assistant to Mr. Cragin for Military Assistance to Civil 
Authorities.
    Mr. Shays. Thank you. I am sorry, you have the floor back 
and we will--did we go 10 minutes? So we will give you a few 
more minutes and then we will go to Mr. Souder.
    Mr. Blagojevich. I will be brief. It is my understanding 
that the RAID teams, there is one RAID team for each State. Is 
that fair to say?
    General Fenimore. One per FEMA region and there are 10 FEMA 
regions.
    General Shultz. If I may clarify, the 44 light teams that 
were referred to are not full time, less robust, and have less 
capability but each State and territory and the District will 
have some chem-bio response as directed by the Congress last 
year this next year. We are training the members, arranging for 
equipment; but it will be less robust, as I talk about RAID 
lights, than the full-time teams with the capabilities that we 
are discussing here with the 10.
    Mr. Shays. Those are 22 individuals who are on active duty 
and 10 FEMA regions?
    General Shultz. That is correct.
    Mr. Blagojevich. But the goal is one per State?
    General Shultz. The goal is that each State and territory 
would have some capability. That was our original intent.
    Mr. Blagojevich. Does Missouri have one?
    General Shultz. Yes.
    Mr. Blagojevich. Peoria, I think that it is closer to St. 
Louis than it is to Chicago. Can't you give us a RAID team 
closer to Chicago since Peoria is in the middle? Give it some 
thought.
    General Lawlor. I can respond to tell you how the decisions 
were made, because that is an issue. I can provide you with 
some insight as to how the decisions were made originally to 
station these teams. We did an analysis that took in a number 
of factors, the first of which was the population within the 
FEMA region of the State itself, the total population.
    The second factor we used was the standard metropolitan 
statistical area. This is an area that is identified through 
the census as being a metropolitan area. We looked at the 
number throughout any given State. We looked at the lift 
capability of the National Guard within that particular State, 
helicopter, C-130, what kind of air transport they had, which 
States had interstate compacts, so that there was some basis 
for the States to cooperate.
    We also looked at the level of the State interest; and 
finally, we looked at the location of the FEMA regional 
headquarters in order to facilitate cooperation with the FEMA.
    Throughout this process we have tried to utilize existing 
procedures, and that is very important. There is a Federal 
response plan, and that is the procedure that is used across 
the United States to respond to large scale disaster, and we 
specifically adopted that procedure.
    So once we had received all of this criteria and the 
analysis, we then went to the State Governors and Adjutant 
Generals and requested their specific station recommendation 
because we believe that they have the greatest knowledge on the 
ground of where this team should be placed.
    We got that input, and then we bounced it back against the 
criteria to make certain that it fit the criteria that we 
devised. And if it did not, we made a recommendation that it be 
moved. But that is how the decision was made.
    Mr. Shays. Thank you. I thank the gentleman. I am sorry 
that I interrupted twice here, and I appreciate your tolerance.
    Mr. Souder, you have the floor for 5 minutes.
    Mr. Souder. First, I want to agree with my friend from 
Illinois that Indianapolis seems to make more sense because 
Peoria and Missouri are very close together and Indianapolis 
could have covered both.
    Also if he didn't carry on so much about the nuclear waste 
going through Chicago. Maybe he would have had a HAZMAT team 
there, because he wouldn't let anything go through.
    I am not sure who would best answer this question, but, 
General Fenimore, we have an Air Guard unit in Fort Wayne; and 
they are training as part of their regular duties because they 
get assigned into the--they have been in the Middle East and 
other places of high risk.
    Is that pretty standard, that these Air Guard units, and I 
would also be interested in Army Guard units. Are they prepared 
because of their deployments how to handle this if they were 
attacked while they were overseas, and how does that differ 
from some of the RAID training?
    General Fenimore. Well, it is very different. Most Air 
Guard units have a mission that requires them to deploy, so 
most Air Guard units do training in survival, in chemical and 
biological warfare situations. Many Army units do as well.
    The difference is, whereas they have the capability to 
operate in a chemical or biological environment, they don't 
have the sophisticated sensing equipment to detect precisely 
what they have got in all cases. The RAID team is the 
organization that has that equipment and can tell the people 
exactly what they have got. But it is a different thing. The 
Air Guard and the Army Guard people on deployment status are 
training to operate in an effort--and the RAID team is a small 
cluster of people specifically trained to detect what it is we 
are facing.
    Mr. Souder. I went through a simulation and they certainly 
set up the tents, and there were assumptions that they were 
going to do that. Were they assuming that when they were in the 
zone of combat that somebody would be there with that 
equipment?
    General Fenimore. In many cases that is true. Not all of 
them have the integral equipment built in to make those kinds 
of chemical and biological detections.
    General Shultz. Could I respond to a piece of your 
question. As it relates to the Army, we have chemical defense 
teams, NCB defense teams, nuclear, chemical and biological 
defense teams, and we train annually to operate in a 
contaminated environment, and that would include chemical and 
biological kinds of releases.
    The one thing that we don't have in the military today is 
biological detection capability with any level of 
sophistication. That is why that category always seems to stand 
out as a bit unique. But we do train for releases of chemical 
and biological agents on an annual basis.
    Mr. Souder. Are these 10 RAID teams in the FEMA intended to 
be regional coverage?
    General Shultz. The intent was that we would have some 
response capability in each of the FEMA regions, yes.
    Mr. Souder. And I understood from General Lawlor's comment 
that one of the reasons a site is selected, they have the 
ability to move by air?
    General Lawlor. That is correct.
    Mr. Souder. For example, Peoria would cover Terre Haute and 
Indianapolis. Who makes a decision whether to deploy out of 
State?
    General Lawlor. The request would come--I will defer to 
General Shultz. It is really a National Guard issue.
    General Shultz. The Governor of a State or jurisdiction 
would approve the release of that individual team that belonged 
to them to go to another State.
    Mr. Souder. So if the Governor of Indiana said we don't 
have the capability, who would he call to get it so that the 
Governor of Illinois would release it?
    General Shultz. They talk to their fellow Governors. We 
respond routinely to these kinds of requests, across State 
lines and jurisdictional boundaries, and this kind of request 
would also fit that category. If we had a case where the 
Governor said you can't have my team, we have a Federal 
authority that we would have to apply.
    Mr. Souder. If two incidents occurred at the same time and 
one was in the State where the team was, what would happen to 
the other State?
    General Shultz. We would reach to another region and access 
their team.
    General Fenimore. From a practical standpoint in terms of 
requesting help from other States, the Governors may do that; 
but in fact it is more likely for people like myself or even 
some of the operational people on my staff who know the 
operational people from adjoining States to make that request 
directly so that the help is on its way while all the blessings 
from higher levels are being dealt with.
    In the fall of 1995 when we had the worst forest fires in 
our history on Long Island and New York State, we simply called 
the--we were in desperate need of heavy lift helicopters to 
drop water on the fires. We called Connecticut National Guard, 
and they responded because we have an understanding. In some 
cases it is memorandums of understanding, but in most cases it 
is just agreements among the members of the Guards that we will 
respond and take care of the paperwork later where it is a life 
threatening situation. As a practical matter, that is not an 
impediment.
    Mr. Souder. So in Burlington, VT, if something occurred, 
the Guard would know to call New York.
    General Fenimore. They would indeed. Martha Rainville, the 
Adjutant General of Vermont would probably call me if she knew 
about it. If she were away on vacation or at some conference, 
her operations people would call my operations people, and our 
team would be on its way.
    Mr. Souder. Is part of the assignment of the 10 RAID teams 
to watch for incidents in their zones so they would call if 
these people--the HAZMAT teams, that Guard unit, there will be 
a proactive in New York State, if you saw something happening 
in Burlington, you would be contacting them and saying hey, we 
have these resources if you need us?
    General Fenimore. Absolutely. We work out protocols with 
our State police, with the Office of Fire Prevention and 
Control. We are working on protocols with all first responders 
to include emergency managers in cities, counties and the State 
so that anyone seeing a problem which would potentially require 
the assistance of a RAID team gets that word through their 
operation. Or more likely, based on the emergencies in the last 
few years, someone in that local community, knowing a member of 
the RAID team or of the National Guard, will make that call 
even before you get it through official channels.
    And very often we have our people on the road well in 
advance of the first official requests for help. That is one of 
the values of a RAID team or other National Guard assets 
because we work with these first responders around the State 
every day. We go to conferences with them and train with them. 
They know each other on a first name basis so there is not the 
same kind of delay that you will get going after other 
resources.
    General Lawlor. Also, there is an assumption here that 
there is a necessity to deploy the entire team to any given 
incident, and that is not necessarily true. Oftentimes you will 
see those folks deploy in teams of five or six folks to do 
sampling or testing. So there is some split-base operations 
capability. You would not necessarily have to deploy the entire 
team to a given incident.
    Obviously, depending on what the incident was, if this was 
a massive release, probably you would want to deploy it in its 
entirety. If it were an investigatory kind of inquiry, we have 
something here, we don't know what it is, we are concerned 
about it, there would not be the need to deploy the entire 
team. There would be the capability to go forward with a piece, 
perhaps a survey team, to provide the information that the 
local authorities need.
    Mr. Souder. General Shultz, you said something about 
weaponized chemicals. That sounds more like a delivery system. 
Anthrax, is that something that you are saying is a weaponized 
chemical?
    Mr. Shultz. Anthrax in and of itself is not so dangerous. 
It is when you weaponize it and release it into the atmosphere 
when it becomes the critical agent. Weaponizing in terms of an 
enemy, perhaps a terrorist, makes it more risky and it is not 
so easy to do. But those that have the willpower, the financial 
wherewithal, that is where the risk comes from, primarily.
    Mr. Souder. Hopefully this would not occur, but certainly 
we are looking at these kinds of potentials. How do you see 
this overlapping with our potential threats in school violence, 
which clearly we are seeing the pipe bombs? We are not very far 
from that being the No. 1 place where they are real threats 
right now in this country.
    We have all kinds of threats coming from Mr. Blitzer but we 
are not really seeing very many executions of those threats. 
The mass violence right now seems to be in our schools. Has 
that been calculated in any of the RAID teams?
    General Shultz. It has not been a discussion in any of our 
discussions.
    Mr. Souder. Would you respond if there was a school 
incident where there was a chemical that was--I mean, disbursed 
in a bomb of some sort?
    General Fenimore. Our plan is to not try to make an 
assessment first as to whether or not this is a WMD incident. 
We will respond for any chemical incident, whether we know it 
is WMD or not because very often we would not know what it is.
    Frequently the local responders will assume that it is a 
standard HAZMAT when in fact a sophisticated analysis will 
indicate that it is something far more than that.
    So we will respond to every one of these, whether in a 
school or a truck rolling off the highway with chemicals or a 
railcar. Whatever it is, we will respond and then make the 
determination later. We are not worried about whether the 
railcar containing chlorine was derailed because of an accident 
or willful act. We just respond, period.
    Mr. Souder. I want to put this on record because I haven't 
heard it discussed much because as we have worked with the 
anti-terrorism question in the last few years, clearly the 
initial was international terrorists and fear of strikes by bin 
Laden or agents thereabouts.
    Then we seem to have the boost up of agents in this country 
worried about internal domestic terrorism, which for the most 
part has not happened. We hope what we saw was a lot of spring 
fever and copy cat alarms this past spring, but this may be in 
fact the fastest growing category in the United States if we 
are not careful, and guns may only be a small portion of this.
    I hope that there is some consideration in the long-term 
planning here because handling a bunch of kids and the response 
time needed, how they are going to be impacted by that may be 
substantially different than if you have some sort of 
supernationalist in Montana who is threatening some incident at 
a courthouse.
    General Fenimore. I agree with you, and I am sure as we get 
further into that there will be some training in that regard. 
However, that is principally the concern of the first 
responders. Our RAID teams have a very, very narrow focus, and 
that is to detect what kind of agent it is that we are dealing 
with to help the first responder and help the incident 
commander and to provide communication and other links with 
other responding organizations from the State first and then if 
necessary from the Federal Government. We are going to have to 
factor that in.
    Mr. Souder. Thank you.
    Mr. Shays. Thank you. As I am listening to this, I am 
thinking we are talking about extraordinary possibilities. And 
Oklahoma City, for me, I thought that was a possibility; but I 
thought if it happened, it would be an external force outside 
the United States that would come in. It is very difficult for 
me to contemplate an American citizen would have sought to do 
what he did with others.
    And so it just points out to me the real possibility of 
something really horrific, the use of explosives, the use of 
chemical and biological agents, and even a nuclear weapon 
exploded in the United States.
    And so what we are talking about is absolutely an 
unbelievable topic, and we pray that it won't happen and we 
certainly pray that it won't happen sooner. We pray if it does 
happen we will be able to deal with it.
    We all want to do the right thing on this issue, and I 
would love to--General Shultz, just have you or General Lawlor 
just respond to--I still seem to be a little focused in on the 
so-called crack team versus giving everyone a capability. It 
may be that we are moving in both directions.
    First off General Shultz, what you said, seemed a little 
bit in contradiction to what Mr. Cragin had said. I think we 
need to make sure that the record is clear as to the 
distinction. You said that it is the goal to have the 
capability in all 50 States, and Mr. Cragin said we haven't 
made a determination that we are going to have that in all 50 
States. He said we have 10, and we are going to go 5 more. Help 
me sort those out.
    General Shultz. Congress has said we will create a 
capability in each State and territory and the District. I am 
responding to congressional direction here. I happen to agree 
that we need some capacity in each State and territory to 
respond.
    Mr. Shays. And the congressional one is more--is not a 
definitive law that says we will have 50. It is the recognition 
that Members of Congress are concerned about the ability to 
respond quickly. We have encouraged the RAID light approach. 
And I guess Ms. Embrey, your boss, Mr. Cragin, is basically 
saying the policy of the Department is we have 10 now. We are 
going to move forward and we have 5 more to go. We may go 
beyond that, but we have not locked into 50.
    Ms. Embrey. The establishment of RAID lights were dictated 
in law. The difference between a RAID light and a full up RAID 
is the way that it is staffed. The Department plans to 
implement 15 of the full-time RAID teams. Consequently, we are 
planning to implement 39 RAID light teams, comprised of part-
time staffs.
    Mr. Shays. Right.
    Ms. Embrey. Congress this last year mandated that we 
establish these RAID lights with part-time traditional National 
Guard members serving these teams.
    Mr. Shays. Not active duty?
    Ms. Embrey. Right. For every State that does not have a 
RAID full time.
    Mr. Shays. General Shultz, I think you are giving--a 
generally accepted view is that there is this movement in that 
direction and we call it RAID light; but before this hearing, I 
would have said that I think you need to have one in all 50 
States. I bet most Members of Congress would say that, and I 
think your response is that there seems to be a will of 
Congress, some expressed in law, RAID light--and some expressed 
verbally to you and others that that is the direction that we 
are likely to move in.
    So you have the GAO report saying let's take a deep breath 
here, and let's analyze this in terms of where we head, and I 
think it is an important thing that GAO is doing.
    And one of the points that they seem to make is that they 
have a concern that the RAID teams will have a difficulty 
maintaining their proficiency without having opportunities to 
practice under actual conditions.
    Mr. Shays. And that's why I kind of reacted to Mr. Cragin's 
comment about, you know, the industrial experience versus one 
bioterrorist chemical. The value that the locals have is that 
they are an actual crisis experience. So maybe General Lawlor, 
General Schultz, or General Fenimore can respond to that.
    General Shultz. We share GAO's concern on the sustainment 
of the skills that are obviously perishable over time. If I 
could just respond to your point about the crack teams, the 10 
teams will be crack soldiers and airmen, indeed. And they're on 
duty all the time, at least in small cells for response in the 
times we discussed earlier.
    As it relates to how many teams do we need, we're taking 
this actually a step at a time. The OSD recommendation was that 
we add five times and that's what you'll see in the budget 
recommendations. So it is actually kind of a crawl-walk kind of 
approach with at least some capacity in the States that don't 
have full-time teams.
    Mr. Shays. And yet, though, we still haven't seen how they 
will operate.
    General Shultz. That's true. We're just standing these 
teams up. This is work in progress.
    Mr. Shays. You want to comment, General Lawlor?
    General Lawlor. Yes, I would, if I may. I would respond 
with three thoughts. The first is that specifically with regard 
to the RAIDS as opposed to the RAID lights, but specifically as 
regard to the RAIDs, these are folks who are going to be 
focussed 100 percent of the time on weapons of mass 
destruction. This is not going to be an additional duty. In 
other words, in many cases----
    Mr. Shays. I understand. You made your point.
    General Lawlor. So we have that focus. The second thing I 
would offer is that the training on the equipment and the 
skills needed are no more complex than those needed to fly an 
F-16 or drive an M1 tank or operate a Paladin or an MLRS, which 
we do all the time.
    So I think--and those soldiers who do that so magnificently 
don't always, thank God, have to train under actual 
circumstances. So I think that there is an argument to be made 
that the sustainment of these can be certainly kept alive.
    Third is that we are together with the National Guard 
focussing very carefully on the continued training of these 
teams through exercises, through--through updates as the 
technology improves, as the understanding improves. We have 
here, which we can make available to the committee if it 
wishes, this is the doctrine that we are beginning to compile 
as to how these teams actually operate. A lot of work has gone 
into it with a lot of folks, and I would say most of the folks 
that are shown up on this chart have contributed to this 
document.
    So we're refining these techniques, so I think that we're 
going to find that these teams will serve as the spirit--the 
tip of the spear in this whole arena in developing how we 
respond to these incidents effectively. Very important.
    General Fenimore. Much of what I say here, although brief, 
it will be a mirror image of what General Lawlor is saying. I 
was very surprised to read in the GAO report that they had 
concerns that would be--we might have difficulty operating this 
complex equipment. I have a lot of difficulty understanding 
that because we operate B1 bombers and many of the other things 
that general Lawlor described--and this is test equipment. And 
we have people that not only operate some pretty sophisticated 
avionics and other equipment, but they maintain it and I think 
they just missed on that one.
    In terms of maintaining proficiency----
    Mr. Shays. And I think that's important for this to state 
on the record so I'm happy you're making that point. You're 
reinforcing a point that's already been made.
    General Fenimore. Maintaining proficiency as was 
mentioned--this is all we do and they're going to be doing it 
all the time. It's not like HAZMAT teams, although well 
trained. In those 20,000 volunteer fire departments, they just 
don't do that full time.
    One of the advantages we give to the first responder 
community is--and this is one of the reasons that the first 
responders in New York State are looking forward to the arrival 
of these teams--is that they will have the time in between 
responding to whatever incidents occur from time to time--and 
we have them almost daily in New York State, although not 
sufficiently serious enough to call them more than once a week, 
I would predict--but in between responding to those things, we 
will be working.
    We have already planned to start working with first 
responders all over the State to export to them DOD expertise 
in what are the most current potential weapons that could be 
used. So we're going to be providing unlike the program to 
train 120 cities, we come and we help you and we do good things 
and you learn a lot but these fire departments have turnover 
every year.
    These RAID teams will help provide sustainment training for 
first responders around the State and although they do get 
first--they get sustainment training to some extent in standard 
and industrialized chemicals, they aren't getting it in weapon-
specific chemicals; and they're not getting it in the bio arena 
and we will provide that and that's why they're so anxious to 
see this.
    In terms of retention, that was another concern expressed, 
sure. In DOD and all of the public sector, we have difficulty 
retaining highly trained, highly skilled technicians. They're 
jumping over to private industry but that's true for all of us. 
I think we have one advantage and that is that most of the 
people we've been able to attract to these RAID teams, have 
left the private sector because they're so excited about being 
on the first line of defense.
    Mr. Shays. That was clearly a point made in the GAO report 
that needed to be responded to, and I thank you for responding 
to it.
    The question that I just very quickly--I don't need a big 
response. I'm not familiar with retention of active duty Guards 
personnel. They're paid the standard salary that you would 
receive in the general Army, general Air Force?
    General Fenimore. Yes, sir.
    Mr. Shays. Do they sign up as general Guard personnel with 
the knowledge they'll be active duty or do you transfer them 
from----
    General Fenimore. The people that we have hired, we have 
hired into active duty jobs. Some of them have come off active 
duty from the armed forces. Some were in the private sector and 
were traditional Guardsmen or reservists, the weekend people; 
but they did sign up for a full-time active duty job.
    Mr. Shays. General Shultz, I was about to get into this 
whole issue when I talked about special training. You're making 
the point that all 10 and the 22 within each 10 of these units 
will be highly trained and qualified. All of you have made that 
point. But I make an assumption that they're augmented in part 
by true specialists in particular parts of chemical biological 
or nuclear response. For instance, I make an assumption that we 
have trained personnel that can dearm a nuclear weapon.
    General Shultz. Correct.
    Mr. Shays. But they wouldn't be given this kind of 
training, I would think, in these RAID units. These would be 
truly specialized personnel.
    General Shultz. That's correct.
    Mr. Shays. Do they exist in all three branches of 
government, the ability to--picture a scenario. This is totally 
makeup--I want to say this again--but possible. There is a 
warning that the truck that is illegally parked in Times 
Square, a small panel truck, has a nuclear weapon in it; that 
it's set to go off in 10 hours or something or 3 hours. Is this 
a response that one of the RAID teams is going to jump into or 
who would respond to that kind of----
    General Lawlor. The RAID teams would not respond to that, 
sir. There is no render-safe capability built into the RAID 
teams.
    Mr. Shays. That means something you render safe----
    General Lawlor. Render safe would be deactivate the nuclear 
weapon, disarm an explosive device.
    Mr. Shays. It may be an explosive device that has a 
chemical in it.
    General Lawlor. Whatever. They do not have render-safe 
capability.
    Mr. Shays. But the RAID teams are responding to a disaster 
that's already occurred, not a disaster in progress.
    General Lawlor. That's correct, sir. I say that's correct, 
but it could be a situation where people have discovered a 
substance that they don't know what it is and they want to find 
out, but if there is an explosive device involved, they do not 
have that capability.
    Mr. Shays. But it would strike me that the teams would be 
called because whatever may happen, whatever the threat may 
actually happen and they're on their way.
    General Lawlor. They would--they certainly would be called 
to monitor in the event that the device exploded.
    Mr. Shays. Let's just say it's a Soviet nuclear backpack, 
one that some of us wonder if the Soviets could--if they have 
knowledge of where all of them are. So one of them got in the 
hands of an Afghan terrorist organization and the next thing we 
know it's in New York City. What happens under that 
circumstance?
    General Lawlor. Sir, I think the best way to answer that is 
there are capabilities to respond, but I believe they're 
classified.
    Mr. Shays. I don't want to know details but I would want--I 
would think that we would--just tell me in this sense is it a 
military response or is it a State, local, or national 
response?
    General Lawlor. There's a Federal response capability.
    Mr. Shays. And then just tell me how the RAID teams would 
interface with whatever national response team we have.
    General Lawlor. The RAID teams might not respond. It 
depends on how the information flow occurs. In the event of 
that kind of an incident, I'm assuming that the State emergency 
management authorities would be notified. If in fact General 
Fenimore was notified, then he would make the decision whether 
to deploy the RAID teams in support of the Federal response.
    Mr. Shays. I've had, obviously, briefings on this but in 
general terms--it's difficult to have a dialog about nuclear 
biological or chemical without having some general ability to 
have dialog about this. One of the things we're talking about 
is the issue of the Federal Government injecting itself on a 
State or local level.
    In the case of a very dangerous situation with a biological 
chemical or nuclear weapon, is it automatic that the Federal 
Government supersedes any activity in the State; and they can 
step in and push away the police, push away--I mean, that's----
    General Lawlor. I believe there is some statutory language, 
sir. I would have to get the actual language, but I believe 
there is some statutory language that provides what the 
responsibility is.
    General Fenimore. If I'm not mistaken, sir, even PDD 39 
recognizes the fact that the State has jurisdiction. The 
Federal responders come in at the State's request. We're 
talking here about consequence management. Specifically in the 
case you're talking about where there's a suspected nuclear 
device somewhere in the State of New York. Although we have 
pretty good capability to deal with the consequences of a 
nuclear mishap, because we have nuclear power plants in the 
State and we routinely exercise for these kind of scenarios, we 
have no capability to disarm a nuclear device.
    So if we thought we might have one in that panel truck in 
Times Square, we would then invite the Federal Government to 
please respond as quickly as they could with people who could 
assess what it was in that truck and deal with it.
    Mr. Shays. As someone who lives 30 miles away as the crow 
flies--or now 50 miles away, as a crow flies from New York 
City, I could care less that New York City or New York State 
has a sense of jurisdiction. I would want to know whoever is 
most capable would be able to step in without any 
jurisdictional battle.
    General Fenimore. We would agree with you, sir. That's why 
we would call in whoever the most expert people are that can 
respond. In the case of a nuclear situation, we flat out don't 
have that expertise. We have no choice but to call in the 
Federal Government. We would do that immediately.
    For HAZMAT situations obviously where we do have 
capability, we would look at those resources first but 
certainly would not hesitate to be notifying the Federal 
responders to get ready to come.
    General Lawlor. Mr. Chairman, I think I can answer your 
question, if I may.
    Mr. Shays. Sure.
    General Lawlor. In the event of a crisis, the FBI has lead 
Federal agency jurisdiction. It would step in and then it would 
call upon assistance to include assistance from the DOD to 
render the device safe. That is very clear.
    Mr. Shays. Thank you.
    That clearly isn't top secret. Just a comfort level for all 
of us, including me.
    General Shultz. Specifically in terms of a lead Federal 
agency, Department of Energy actually has the nuke weapons 
response mission. DOD is not the best answer, but that's how 
it's stated in the plans today.
    Mr. Shays. If a terrorist organization got into Millstone 
1, 2, and 3 in Connecticut and gained control of it, that 
becomes a response of the Federal, State, or local government?
    General Lawlor. It's the same response, sir. The FBI has 
lead Federal agency jurisdiction in crisis, and they will call 
upon other Federal agencies as needed to assist them.
    Mr. Shays. Do you have any questions you want to ask?
    Mr. Blagojevich. I just have one question. This is for 
General Lawlor. An important element to the success of the RAID 
team is the ability to coordinate and perform with the civilian 
emergency responders. What training and exercises are planned 
to build confidence and experience between the civilian 
emergency responders and the managers of the RAID team 
personnel?
    General Lawlor. There are numerous exercises that are 
being--let me back up and start out by saying the--I'm sorry. 
The initial operating capability of the RAID teams is January 
2000. That's when we believe they'll be certified by the 
Secretary of Defense and ready to meet their missions.
    There are a number of exercises to include the Domestic 
Preparedness City Training Program, whereby RAID teams have 
already been requested to participate; but we have deliberately 
asked them not to until their training is farther along so that 
they can make a reasonable contribution.
    So I expect that in addition to cities that are undergoing 
domestic preparedness, that you will have annual training; for 
example, there is mandated training every year for a chemical 
exercise and a biological exercise. One this year is happening 
in September in New York City. The RAID teams will be--they 
will be somewhat observers in that particular exercise. At this 
point they're observers as opposed to participants because they 
haven't been certified.
    And there are exercises that will be planned throughout the 
year as DOD continues its consequence management efforts. In 
addition to that, the State authorities have their exercises 
that they participate in. I can't give you specifics in terms 
of the dates except for the one in New York City. That's the 
one I'm most familiar with right now.
    General Shultz. If I could respond just to a couple of 
examples. It's our intent to have RAID teams conduct 
sustainment training every quarter. Two of those quarterly 
exercises must be outside of their own State that they're 
currently assigned so they'll move to another jurisdiction and 
train for events.
    On an annual basis, we will also train and exercise with 
the FEMA leadership and their response cell, so we're looking 
at both a quarterly and an annual kind of refresher exposing 
ourselves to the scenarios and exercises that we may well be 
called to respond to.
    General Fenimore. In our State, the National Guard has 
already worked up memorandums of understanding with the two 
main responders. We would be working with the Office of Fire 
Prevention and Control and the State police. We will be 
developing exercises before the year is out so that once these 
teams are operational in January, we will begin a series of 
exercises and we will continue these for the foreseeable future 
so that we're accustomed to working with the local responder. 
We'll be helping to train them.
    We'll actually be learning some things from them in this 
process, but it will be part of an integrated package that will 
be exercised routinely all over the State and we've already 
planned to do that, and some of those plans are already well 
along to being complete.
    Mr. Blagojevich. Ms. Embrey.
    Ms. Embrey. Earlier you asked about the conduit between the 
local, State, and Federal responders, and I think the RAID 
teams, as we envision them, represent that very conduit. The 
program that we have for training focuses on working with the 
local responders on at least a quarterly basis--well, much more 
often than that--and working with other States' responders on a 
quarterly basis.
    It also involves us working with the other Federal assets 
at least twice a year in every FEMA region and how they might 
respond. So it really is trying to get all the players together 
to work together and anticipate how each will play what role to 
respond to an unthinkable incident.
    Mr. Blagojevich. Thank you.
    Mr. Shays. We're going to get you out of here in 5 minutes. 
When I view this--and tell me if I should think of it 
differently--first I see dealing with a chemical, biological, 
or nuclear terrorist attack. You have prevention; you have 
detection. You want to get into their cells. You want to stop 
it before it starts. You want to have a deterrence that this 
won't happen.
    You then--you get into the whole issue of crisis management 
and consequence management, and we're really in the issue of 
consequence management pretty much. And in crisis management--
and one, we're trying to protect as many people as we can and 
then we're also trying to determine the extent of the damage.
    We're trying to determine also who did it. You're going to 
have the FBI step in here and say, OK, let's find the 
individuals involved. You're going to have specialists who are 
able to come in who are going to augment obviously the State 
and local response and our RAID teams, and we're determining 
whether we want more RAID teams, whether they should be full 
time, and this is one of the decisions Congress has to make. 
And we don't yet have in operation these RAID teams.
    How are you able to determine without an actual event their 
capability? This clearly happens to the military all the time. 
In other words, we don't always have wars and we don't always 
have fighting but this is probably the--you are the best people 
to answer that question.
    General Lawlor. I can address immediately the two 
capabilities that the RAID teams have, the analytical 
capability and the communications capability. We're in the 
process, as I indicated, of constructing the architecture that 
will enable us to test the communications capability. And we 
are planning a demonstration specifically designed around a 
scenario where it will require us to link communities, multiple 
communities to the RAID communication suite and through that 
communication suite back to the expertise and reachback 
capabilities that we have in the Federal Government.
    So the ability to test and demonstrate the communication 
system is clearly there through exercises. The second 
capability that we're looking at is the analytical capability 
and that is strictly--that is strictly an issue of taking the 
equipment to our testing facilities, testing it on live agents, 
and it works or it doesn't.
    So we think we have the capability to demonstrate clearly 
that what we are trying to provide with the RAID teams will 
work, and that's why we have such a degree of confidence in 
their value to the communities because we don't believe these 
capabilities exist out there today.
    Mr. Shays. General.
    General Shultz. If I could also respond to that question. 
What we want to do in terms of training realistically is use 
the combat training center logic that we have in the Army at 
Fort Irwin, CA; Fort Polk, LA. We take the Army to war without 
going there. We meet the best opposing force in the world at 
those two training centers; and what we want to do in training 
and certifying the skills of our response teams is create 
through a series of scenarios a very demanding training 
environment, and that's how, I believe, we would begin to 
answer your interest in this question, how good can we really 
be.
    Mr. Shays. What difference, if any, exists between the RAID 
teams and the FBI HAZMAT response units? Obviously there are 
some differences; but, one, we decided to do the RAID teams 
which are Federal--excuse me, State National Guard and HAZMAT 
teams we mentioned close to 600 of them which means you're 
coming in locally and training people on how to deal with 
HAZMAT materials and so on.
    I guess the question I'm asking, they are slightly 
different models. How do we integrate the two of them? Maybe 
that's not the question. I don't think I asked the question--I 
look at confused looks and I think I deserve--the question I'm 
really asking is we decided to step forward--my understanding 
is that these are local responders. Correct?
    We have both local and Federal because the FBI has theirs 
as well. But the Federal Government is providing grants--this 
is really the question. The Federal Government is providing 
money to give expertise to the local level. We decided to give 
this expertise in a sense to the National Guard. It's a 
slightly different model and I guess I'm asking the question 
why. I think that's--it's really an important question for me 
to have a response to. Why did we decide to go this route 
rather than just make sure that all local communities had the 
expertise that the RAID teams have?
    General Fenimore. Well, the--from our perspective, it's 
good that there are going to be grants to give them the 
expertise, but what they will not have is that analytical 
capability that we cannot afford to put with each one of these 
HAZMAT teams. The cost would be astronomical. This is a more 
cost-effective way. You're getting a 95 percent solution for a 
tiny fraction of the cost.
    Mr. Shays. I think the answer really--this is the question 
you could have answered earlier because in a sense you've 
answered it; but I would just like it in response to this 
question. I make an assumption, General Lawlor, that your 
point, the communication and the analytical ability is better 
addressed--that can't be--well, you've answered the question, 
General, and you're reinforcing it.
    General Lawlor. It could be addressed if the Congress was 
willing to spend the funds it would take to put that capability 
in every community or every--even every HAZMAT team. It could 
be done. It's clearly a question of cost.
    Mr. Shays. The tradeoff, it seems to me, is the events when 
they occur will be horrific, but they will be infrequent but 
they will or may occur.
    General Lawlor. The other issue I would raise for you, sir, 
is that--and I haven't done the analysis, but it should be done 
if that's the way that you choose to go--is I'm not sure what 
the coverage would be of those 660 HAZMAT teams. I don't know 
if you get the same coverage because they clearly have 
jurisdictional issues attached to them that do not apply to the 
RAID teams.
    We can take a RAID team, and we can move it anywhere within 
the State. We can easily through cooperation move it anywhere 
within the FEMA region. We can federalize it, move it anywhere 
within the country. I'm not sure you can do that with a local 
HAZMAT team from a local jurisdiction.
    Mr. Shays. Fair enough. Ms. Embrey, do you want to make a 
response? My 5 minutes stretched to 10. Then we'll be done.
    Ms. Embrey. Initially, I thought you were talking about the 
Federal FBI's HAZMAT or HMRT.
    Mr. Shays. That's why my staff looked so concerned. They 
didn't know what I was talking about.
    Ms. Embrey. If you're talking about the FBI's assets, I 
think the focus of their capability is to identify and detect 
for forensic purposes, for the crime scene, for evidence. I 
think that's a very important capability that they have to 
have. But I think that the RAID teams have a broader, more 
specific focus on weaponized chemicals and biologics and that's 
why they compliment each other. They don't conflict or 
duplicate.
    Mr. Shays. You were reluctant to participate, and you have 
made wonderful contributions. So I'm happy you did. I'm happy 
all of you did. Any last word any of you would like to make 
before we hit the gavel?
    General Lawlor. Sir, I'm sorry. At the risk of prolonging 
this, I just want to make one point because we've talked about 
the time of response. And that seems to be an important issue. 
I would invite the committee to look at the locations of the 
RAID teams in the existing States, and you will find that in 
seven of the cases, I think, they are virtually on top of the 
major population area in that particular State.
    So the local and the gubernatorial input has been to locate 
them in the area of the greatest population concentration. In a 
couple of areas where they have not, sir, I think it's 
because--and I can't speak for them, but I know in the case of 
New York is that New York City has a very robust capability and 
were they to locate it--colocate it in New York City, it really 
would be duplicative. However, that's my closing comment. I 
appreciate your patience.
    Mr. Shays. I appreciate your making that comment. Any other 
comments before we conclude? It's important for you to make 
sure we put things in the record that you would have liked us 
to ask or want to emphasize.
    General Fenimore. Nothing specific, but just from the 
State's standpoint thank you all for having this level of 
interest on a subject that's very, very important to us. We 
really believe this is a serious threat. We know that today we 
do not have sufficient capability to deal with it. And we've 
been living on borrowed time. We've been very fortunate, and we 
need to have a sense of urgency about this and we thank you for 
your interest.
    Mr. Shays. Thank you. General.
    General Shultz. Thank you for your interest, Mr. Chairman.
    Mr. Shays. We're very interested. I'll just use that--we'll 
use that as an excuse to say to you that this committee has 
by--the subcommittee has been given the jurisdiction of all 
terrorist activities, whether they're domestic or foreign, and 
we have capability to draw on any department of government to 
look at this issue.
    So we really do have the ability to have a kind of a 
comprehensive view of it, and we consider it our first and 
primary charge and we're really kind of just getting our feet 
wet as well; and we just intend to develop that expertise and 
make a contribution. Thank you for helping us.
    Ms. Embrey. I'd like to correct something for the record. 
The GAO chart here shows the RAID teams as just Army National 
Guard and yet they are mixed with Air National Guard personnel 
as well.
    Mr. Shays. But it is Army ultimately that has the primary 
responsibility. Correct?
    Ms. Embrey. The Department of Army is the Secretary of 
Defense's executive agent for domestic response operations and 
support; so, therefore, the Army ultimately helps marshal the 
appropriate resources.
    Mr. Shays. Do you have an Air Force background here?
    Ms. Embrey. I just wanted to make sure you knew there was 
Air Guard personnel there.
    Mr. Shays. Note for the record no answer to the question. 
With that we adjourn this hearing.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
